<html>
<title> - ENVIRONMENTAL RESEARCH AT THE DEPARTMENT OF ENERGY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                       ENVIRONMENTAL RESEARCH AT
                        THE DEPARTMENT OF ENERGY

=======================================================================


                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 9, 2009

                               __________

                           Serial No. 111-30

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
49-965                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                  HON. BRIAN BAIRD, Washington, Chair
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
EDDIE BERNICE JOHNSON, Texas         ROSCOE G. BARTLETT, Maryland
LYNN C. WOOLSEY, California          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
DONNA F. EDWARDS, Maryland           RANDY NEUGEBAUER, Texas
BEN R. LUJAN, New Mexico             MARIO DIAZ-BALART, Florida
PAUL D. TONKO, New York                  
JIM MATHESON, Utah                       
LINCOLN DAVIS, Tennessee                 
BEN CHANDLER, Kentucky                   
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
            CHRIS KING Democratic Professional Staff Member
        MICHELLE DALLAFIOR Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
      ELAINE PAULIONIS PHELEN Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
          ELIZABETH STACK Republican Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                      JANE WISE Research Assistant


                            C O N T E N T S

                              June 9, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chair, Subcommittee on 
  Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     9
    Written Statement............................................     9

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    11
    Written Statement............................................    12

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    12

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Energy and Environment, Committee on 
  Science and Technology, U.S. House of Representatives..........    13

Statement by Representative Ben R. Lujan, Member, Subcommittee on 
  Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................    10
    Written Statement............................................    10

                               Witnesses:

Dr. Paul J. Hanson, Distinguished Research and Development 
  Scientist, Oak Ridge National Laboratory; Chief Scientist, 
  Program for Ecosystem Research, U.S. Department of Energy
    Oral Statement...............................................    14
    Written Statement............................................    16
    Biography....................................................    18

Dr. David C. Bader, Program Manager for Climate Change Research, 
  Oak Ridge National Laboratory
    Oral Statement...............................................    18
    Written Statement............................................    20
    Biography....................................................    24

Dr. Nathan G. McDowell, Staff Scientist and Director of the Los 
  Alamos Environmental Research Park, Los Alamos National 
  Laboratory
    Oral Statement...............................................    26
    Written Statement............................................    27
    Biography....................................................    33

Dr. J. Whitfield Gibbons, Professor Emeritus of Ecology; Head of 
  the Savannah River Ecology Laboratory Environmental Education 
  and Outreach Program, University of Georgia
    Oral Statement...............................................    33
    Written Statement............................................    35
    Biography....................................................    37

Discussion
  Land Remediation...............................................    39
  Funding Sources and Park Activity..............................    40
  Environmental Degradation and Water Studies....................    42
  The Study of Renewable Energy Sources..........................    44
  Climate Modeling...............................................    45
  Evidence of Climate Change.....................................    47
  More on Remediation............................................    50

             Appendix 1: Answers to Post-Hearing Questions

Dr. Nathan G. McDowell, Staff Scientist and Director of the Los 
  Alamos Environmental Research Park, Los Alamos National 
  Laboratory.....................................................    54

             Appendix 2: Additional Material for the Record

H.R. 2729, To authorize the designation of National Environmental 
  Research Parks by the Secretary of Energy, and for other 
  purposes.......................................................    56


           ENVIRONMENTAL RESEARCH AT THE DEPARTMENT OF ENERGY

                              ----------                              


                         TUESDAY, JUNE 9, 2009

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chair of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                       Environmental Research at

                        the Department of Energy

                         tuesday, june 9, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Tuesday, June 9, 2009 the House Committee on Science and 
Technology, Subcommittee on Energy and Environment will hold a hearing 
entitled ``Environmental Research at the Department of Energy.''
    The Subcommittee's hearing will receive testimony on H.R. 2729, 
sponsored by Rep. Lujan, to authorize the seven existing National 
Environmental Research Parks as permanent research reserves and 
provides guidance for research, education, and outreach activities to 
be conducted on or in collaboration with the Parks. The hearing will 
examine how the Parks have been used to study long-term trends in the 
development of ecosystems, develop methods to monitor and remediate 
contaminants, and conduct environmental education and outreach 
programs. The hearing will also examine other climate and environmental 
research programs conducted by the Department of Energy (DOE) Office of 
Science.

Witnesses

        <bullet>  Dr. Paul Hanson is the Ecosystem Science Group Leader 
        at Oak Ridge National Laboratory. Dr. Hanson will testify on 
        DOE's carbon cycle studies, with a focus on experimentation and 
        measurement. He will also address the importance and utility of 
        the Oak Ridge National Environmental Research Park.

        <bullet>  Dr. David Bader will testify on his role as the 
        Director of the Program for Climate Model Diagnosis and 
        Intercomparison, which conducts comparative computational 
        modeling studies and synthesizes the U.S. contribution to 
        research coordinated by the Intergovernmental Panel on Climate 
        Change.

        <bullet>  Dr. Nathan McDowell is a lead researcher in the 
        Atmospheric, Climate, and Environmental Dynamics Group at Los 
        Alamos National Laboratory. Dr. McDowell will testify on 
        research and educational activities conducted by the Los Alamos 
        National Environmental Research Park.

        <bullet>  Dr. Whit Gibbons is Professor Emeritus of Ecology at 
        the University of Georgia and Head of the Environmental 
        Outreach and Education program at the Savannah River Ecology 
        Laboratory (SREL). He has also been involved in collecting and 
        managing several long-term sampling programs at the Savannah 
        River National Environmental Research Park.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

Background

National Environmental Research Parks

    The National Environmental Research Parks (NERPs) are unique 
outdoor laboratories that provide opportunities for environmental 
studies on protected lands around DOE facilities. They offer secure 
settings for long-term research on a broad range of subjects, including 
biomass production, environmental remediation, plant succession, 
population ecology, ecological restoration, and thermal effects on 
freshwater ecosystems. The Parks also provide rich environments for 
training researchers and introducing the public to ecological sciences.
    Interest in the use of radionuclides in ecological research evolved 
after World War II. To ensure the security and safety of the Nation's 
work on nuclear weapons, the government established laboratories in 
isolated regions surrounded by large buffer zones of undeveloped land. 
DOE's predecessor, the Atomic Energy Commission (AEC), began to 
recognize the need to track both radioactive fallout from the testing 
of nuclear weapons and inadvertent radioactive releases from nuclear 
weapons production facilities into the environment. Out of the 
radionuclide research grew new technologies for quantifying the 
movement both of natural materials such as nutrients and fluids and of 
introduced pollutants through the ecosystem.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In 1970, the Office of Science and Technology Policy provided 
President Nixon with ten recommendations on the stewardship and use of 
federal lands. One of these was to utilize federal lands to conduct 
research on ecosystems and wildlife biology and preservation. In 1972 
AEC established its first research park at the Savannah River Site in 
South Carolina. The plan for a research park emerged during a formal 
review of the environmental research activities at Savannah River. The 
review team consisted of scientists, representatives from other Federal 
agencies, and members of the newly formed President's Council on 
Environmental Quality. Four years later, DOE released a charter and 
directives for current and future research parks, initially shaped by 
the recommendations of this team.
    The seven National Environmental Research Parks are located within 
six major ecological regions of the United States (Figure 1), covering 
more than half of the Nation. More information on each can be found in 
Table 1 above.
    The mission of the research parks is to: conduct research and 
education activities to assess and document environmental effects 
associated with energy and weapons use; explore methods for eliminating 
or minimizing adverse effects of energy development and nuclear 
materials on the environment; train people in ecological and 
environmental sciences; and educate the public. The Parks maintain 
several long-term data sets that are available nowhere else in the U.S. 
or in the world on amphibian populations, bird populations, and soil 
moisture and plant water stress. This data is uniquely valuable for the 
detection of long-term shifts in climate.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Over the years since their establishment, there have been thousands 
of scientific papers published on the environmental studies done at the 
NERPs. The research at these sites has been conducted by DOE 
scientists, scientists from other federal agencies, universities and 
private foundations.
    The maintenance of the Parks by DOE meets the Department's 
statutory obligations to promote sound environmental stewardship of 
federal lands and to safeguard sites containing cultural and 
archaeological resources.

DOE Research in Climate and Environmental Sciences

    Climate and Environmental Sciences is a major component of the DOE 
Office of Science's Biological and Environmental Research program. It 
focuses on developing a comprehensive understanding of the fundamental 
science associated with carbon cycling and climate change and 
developing monitoring and remediation methods to address the control 
and clean up of environmental contaminants on DOE facilities. Climate 
and Environmental Sciences supports three research activities and two 
national scientific user facilities. The Climate and Earth System 
Modeling activity focuses on development, evaluation, and use of large-
scale computational models to determine the impacts and possible 
mitigation of climate change. Atmospheric System Research seeks to 
resolve two areas of uncertainty in climate change projections: the 
role of clouds and the effects of aerosol emissions on the atmospheric 
radiation (heat) balance of the Earth. The Environmental System Science 
program supports research to understand the effects of climate change 
on terrestrial ecosystems, the role of terrestrial ecosystems in global 
carbon cycling, and the role of subsurface biochemical processes on the 
transport and fate of contaminants, including heavy metals and 
radionuclides. Two scientific user facilities--the Atmospheric 
Radiation Measurement Climate Research Facility (ACRF) and the 
Environmental Molecular Sciences Laboratory (EMSL)--provide the 
scientific community with technical capabilities, scientific expertise, 
and unique information to facilitate research in the above-mentioned 
areas. Details on current and proposed funding for Climate and 
Environmental Sciences can be found in Table 2.

Atmospheric Science Program
    The emphasis for the Atmospheric Science program is on 
understanding the effects of aerosols on climate. The program is 
focused on understanding atmospheric processes that influence 
transport, transformation, and fate of trace chemicals and particulate 
matter associated with energy use and that are generated through 
natural processes. This work is done as part of the U.S. Global Change 
Research Program in coordination with the National Oceanic and 
Atmospheric Administration (NOAA) and the National Aeronautics and 
Space Administration (NASA). The Intergovernmental Panel on Climate 
Change (IPCC) fourth assessment report identified cloud simulation as a 
major source of uncertainty in climate models. Improvement in this area 
could reduce the range of projected increases in Earth's average 
surface temperature could be narrowed significantly. With regard to 
aerosols, the challenge is further complicated by the variety of 
compositions, shapes, and sizes of aerosol particles and the fact that 
they can act to either enhance or offset warming. This research seeks 
to increase the reliability of atmospheric process representations and 
interactions among processes that are needed inputs for the development 
of the next generation of climate models.

Environmental System Science
    Environmental System Science covers three major research thrusts:

        <bullet>  The Terrestrial Ecosystem Science program focuses on 
        determining the effects of climate change on the structure and 
        functioning of terrestrial ecosystems, understanding the 
        processes controlling the exchange rate of carbon dioxide 
        (CO<INF>2</INF>) between atmosphere and terrestrial biosphere, 
        and improving the reliability of global carbon cycle models for 
        predicting future atmospheric concentrations of CO<INF>2</INF>. 
        Experiments involving controlled manipulations of climate 
        factors such as precipitation, temperature, and atmospheric 
        CO<INF>2</INF> concentration are conducted to examine cause-
        and-effect relationships between climate changes and effects on 
        ecosystems. This activity also supports AmeriFlux, the 
        interagency network for directly measuring net sources and 
        sinks of CO<INF>2</INF> by terrestrial ecosystems.

        <bullet>  The Terrestrial Carbon Sequestration program supports 
        research to: identify the physical, biological, and chemical 
        processes controlling soil carbon input, distribution, and 
        longevity; develop models of these systems to project future 
        scenarios of carbon storage or release in terrestrial systems; 
        and seek ways to exploit these processes to enhance carbon 
        sequestration in terrestrial ecosystems. Current research 
        focuses on switchgrass ecosystems associated with DOE's 
        cellulosic ethanol R&D program.

        <bullet>  The Subsurface Biogeochemical Research program 
        addresses fundamental science questions at the intersection of 
        biology, geochemistry, and physics to determine the transport 
        and fate of contaminants in subsurface environments. This 
        research effort focuses in particular on processes that control 
        the mobility of radionuclides in the environment, which will 
        help address DOE strategic initiatives for cleanup and 
        monitoring of the Department's nuclear energy-related and 
        former nuclear weapons development sites. This activity 
        currently supports field research sites in Colorado, Tennessee, 
        and Washington to obtain samples for further evaluation in the 
        laboratory and to test laboratory-derived hypotheses regarding 
        subsurface transport at the field scale. These sites also are 
        important for testing and evaluating computer models that 
        describe contaminant mobility in the environment. In addition, 
        this activity will assist DOE's research on using deep 
        geological formations to store CO<INF>2</INF> taken from the 
        atmosphere.

Climate and Earth System Modeling
    The Climate and Earth System Modeling program covers several areas 
of large-scale computational research. It examines the processes needed 
to improve the coupled atmosphere, ocean, land, and sea ice models for 
simulating climate variability and change over decadal to centennial 
time scales with a current focus on incorporating advanced 
representations of cloud-aerosol and carbon-cycle interactions. It also 
supports climate model diagnosis and comparison, as well as the 
development and improvement of metrics and diagnostic tools for 
evaluating model performance. Over the next several years, analyses 
will be conducted on a suite of global climate modeling experiments 
that are currently being planned under the auspices of the World 
Climate Research Program which addresses the scientific priorities 
identified by the IPCC. DOE takes a lead role in coordinating the U.S. 
contribution to these international climate research activities with 
other federal agencies, in particular the National Science Foundation 
(NSF), NOAA, and NASA.
    An important additional component supported under this program is 
the development of ``integrated assessment models.'' These models 
provide advanced quantitative tools for exploring the implications of 
policy decisions and technological innovations on our energy, 
environmental, and economic futures. They integrate physical and social 
science research to inform decision-makers of the potential impacts of 
and uncertainties in their options. Understanding the role of present 
and possible future energy technologies and their implications for 
greenhouse gas emissions is also a major focus of this research.

Climate and Environmental Facilities and Infrastructure
    DOE's Climate and Environmental Sciences subprogram supports two 
significant user facilities:

        <bullet>  The Atmospheric Radiation Measurement Climate 
        Research Facility (ACRF) is unique in that it is a multi-
        platform facility, with stationary and mobile instruments at 
        fixed and varying locations around the globe. ACRF provides 
        continuous field measurements of climate data to improve our 
        understanding of atmospheric processes and promote the 
        advancement of climate models through observations of 
        atmospheric phenomena. The stationary sites provide scientific 
        testbeds in three different climate regions (mid-latitude, 
        polar, and tropical). The two mobile facilities provide a 
        capability to address high priority scientific questions in 
        other regions. And the ACRF's aerial capability provides in 
        situ cloud and radiation measurements that complement ground-
        based measurements.

        <bullet>  The William R. Wiley Environmental Molecular Sciences 
        Laboratory (EMSL) at Pacific Northwest National Laboratory 
        provides an integrated suite of resources that enable 
        scientists to combine theory and computational modeling with 
        experimental data to develop a molecular-level understanding of 
        the physical, chemical, and biological processes that influence 
        the movement, transformation and fate of contaminants. EMSL's 
        users currently include 742 different institutions in 68 
        countries. All resources housed within EMSL are available at no 
        cost to researchers if their research results are shared in the 
        open literature, and access to these resources is awarded on a 
        peer-reviewed basis. EMSL's capabilities include: a 
        supercomputer designed specifically to solve large chemistry 
        and biochemistry problems; a series of advanced spectrometers 
        to examine biochemical processes as they occur; surface 
        deposition instruments to study and design materials at the 
        atomic and molecular scales; and high-precision subsurface flow 
        and transport tools to measure, model, and predict the 
        transport and fate of environmental contaminants.
    Chair Baird. This hearing will come to order.
    I thank everyone for joining us. This morning we will 
explore some of the environmental research programs and 
activities conducted by the Department of Energy and the 
facilities the Department offers for scientists who do this 
work. DOE's seven National Environmental Research Parks are 
extraordinary outdoor laboratories that provide opportunities 
for environmental studies on protected lands around DOE 
facilities in a variety of geographic and ecological regions. I 
am pleased that my colleague, Mr. Lujan, has introduced H.R. 
2729, a bill that would authorize these parks in law formally 
and provide the guidance and support they need to support 
critical work in research, education and public outreach. I 
should say parenthetically, I don't even know if Mr. Lujan 
knows this, my father was in the final boys school class at Los 
Alamos when the U.S. Government tapped him on the shoulder and 
said ``young man, it is time for you to leave, we have some 
work to do here at Los Alamos,'' and my brother was born in 
Albuquerque and some years later I made a pilgrimage to Los 
Alamos, and it is indeed remarkable, and we also near my 
District have Hanford, and one of the great, I think, wonderful 
paradoxes about this is that at the time those facilities were 
constructed, they were still in a rather primitive state. My 
father, when he was in the boys school, used to go on three-
week-long mule packing trips out into the wilderness of New 
Mexico and with the establishment of Los Alamos, basically that 
stayed in its same state, and much is true of the area 
surrounding the Hanford lab. So some of the most high-tech, 
sophisticated labs in the world ironically have some of the 
most pristine environments, not in all cases, as we know at 
Hanford, but parts of Hanford are in remarkably original 
condition.
    So I really commend Mr. Lujan for his initiative in 
recognizing this unique resource and advocating on its behalf, 
and at this time it is my pleasure to recognize Mr. Lujan for a 
brief statement on his legislation.
    [The prepared statement of Chair Baird follows:]
                Prepared Statement of Chair Brian Baird
    This morning we will explore some of the environmental research 
programs and activities conducted by the Department of Energy and the 
facilities the Department offers for scientists who do this work. DOE's 
seven National Environmental Research Parks are extraordinary outdoor 
laboratories that provide opportunities for environmental studies on 
protected lands around DOE facilities in a variety of geographic and 
ecological regions. I am pleased that my colleague Mr. Lujan has 
introduced H.R. 2729, a bill that would authorize these parks in law, 
formally and provide the guidance and support they need to support 
critical work in research, education and public outreach.
    We will also examine some of the broader research programs underway 
at the DOE Office of Science's Climate and Environmental Sciences 
Division. This division works to achieve a comprehensive understanding 
of climate change, ocean acidification, and remediation of 
environmental contaminants on land and in water.
    Two of the programs are conducted as part of the U.S. contribution 
to international climate research activities. DOE with other federal 
agencies including NSF, NOAA, and NASA seek to resolve two remaining 
areas of uncertainty in our understanding of climate change: the role 
of clouds and the effects of aerosol emissions on the atmospheric 
radiation balance between the sun and the Earth.
    DOE's Environmental System Science program supports research on 
carbon cycling in terrestrial ecosystems and its implications for 
climate change. This program also examines the crucial role of 
subsurface biochemical processes on the transport and fate of DOE-
relevant contaminants, including radionuclides relevant to the cleanup 
of the Department's former weapons development sites. The persistent 
contamination problems on these sites require on-going attention. 
Development of methods to contain and remediate these substances is 
very important to the people in my state.
    We have an excellent panel of witnesses with us today. I appreciate 
each of them taking the time to come and share their expertise with the 
Subcommittee.
    At this time, I recognize Mr. Lujan for a brief statement on his 
legislation.

    Mr. Lujan. Mr. Chairman, thank you very much, and we both 
know how beautiful New Mexico is and it would be an honor if we 
could have some of the Members of the Committee visit with us 
and we could show them around New Mexico a bit and hopefully be 
able to accomplish some great things and look at some of the 
science behind the work that is happening there.
    Thank you very much, Mr. Chairman. And thank you very much, 
Mr. Chairman, for holding the hearings on the National Research 
Parks at the Department of Energy's facilities. As you have 
stated, these parks have been providing environmental 
scientists with unique, undisturbed environments for conducting 
research since they were first established in the 1970s. The 
ecosystems contained within these parks contain intact, 
undisturbed native vegetation and wildlife that represents some 
of the major ecosystems of the United States. The long-term 
data sets that have been collected by these sites are extremely 
valuable for understanding natural ecosystems and variability. 
In a number of cases, these data sets represent the world's 
longest continuous records.
    For example, the scientists at Los Alamos have the world's 
longest running data sets on soil moisture and plant and water 
stress. The 2002 drought that killed off large areas of pinon 
pine in New Mexico could be understood because of the long-
range data sets. This is the type of information we need to 
anticipate the impacts of severe weather and climate on natural 
systems and to develop strategies to manage the systems in the 
face of climate change.
    H.R. 2729 will provide core funding for an organizational 
structure to support the important work of these parks. Again, 
I thank the Chairman for holding this hearing and I look 
forward to the testimony of our witnesses today.
    [The prepared statement of Mr. Lujan follows:]
           Prepared Statement of Representative Ben R. Lujan
    Thank you, Chairman Baird for holding this hearing on the National 
Research Parks at the Department of Energy's facilities.
    As you have stated, these Parks have been providing environmental 
scientists with unique, undisturbed environments for conducting 
research since they were first established in the early 1970's.
    The ecosystems contained within these Parks contain intact, 
undisturbed native vegetation and wildlife that represent some of the 
major ecosystems of the United States. The long-term data sets that 
have been collected from these sites are extremely valuable for 
understanding natural ecosystem development and variability. In a 
number of cases, these data sets represent the world's longest, 
continuous records.
    For example, the scientists at Los Alamos have the world's longest 
running data sets on soil moisture and plant water stress. The 2002 
drought that killed off large areas of pinon pine in New Mexico could 
be understood because of these long-range data sets. This is the type 
of information we need to anticipate the impacts of severe weather and 
climate on natural systems and to develop strategies to manage these 
systems in the face of climate change.
    H.R. 2729 will provide core funding and an organizational structure 
to support the important work of these Parks. Again, I thank the 
Chairman for holding this hearing and I look forward to the testimony 
of our witnesses today.

    Chair Baird. Thank you again, Mr. Lujan. You know, one of 
the things that biologists talk about a lot is the changing 
baseline phenomenon that when you try to study something today 
relative to 10 years earlier, that 10 years earlier was 
different than what would have been 10 years earlier, and what 
we have in these facilities that you have so wisely identified 
with this legislation is a baseline that may be a pretty real 
baseline and so the data set is incredibly valuable.
    Today we will also examine some of the broader research 
programs underway at the DOE Office of Science's Climate and 
Environmental Science Division. This division works to achieve 
a comprehensive understanding of climate change, ocean 
acidification and remediation of environmental contaminants on 
land and water.
    Two of the programs are conducted as part of the U.S. 
contribution to international climate research activities. DOE 
along with other federal agencies including NSF, NOAA and NASA 
seeks to resolve two remaining areas of uncertainty in our 
understanding of climate change: the role of clouds and the 
effects of aerosol emissions on the atmospheric radiation 
balanced between the sun and the Earth.
    DOE's Environmental System Science program supports 
research on carbon cycling and terrestrial ecosystems and its 
implications for climate change. This program also examines the 
crucial role of subsurface biochemical processes on the 
transport and fate of DOE relevant contaminants, including 
radionuclides relevant to the cleanup of the Department's 
former weapons development sites. The persistent contamination 
problems on these sites require ongoing attention. Development 
of methods to contain and remediate these substances is very 
important to the people of my state, particularly if you look 
at the issues surrounding Hanford.
    We have an excellent panel of witnesses today. I appreciate 
each of them taking time to come and share their expertise with 
the Subcommittee, and with that, I would be happy to recognize 
our distinguished Ranking Member, Mr. Inglis.
    Mr. Inglis. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    It has been 37 years since the first Environmental Research 
Park was established at the Savannah River site in Aiken, South 
Carolina. Now nearly four decades later, we profit from seven 
such research parks, each contributing a unique piece to our 
national environment and ecological research portfolio.
    I wonder how many blind spots we would have had in our 
understanding of various ecosystems within this country were it 
not for the commitment and vision of those who first 
established these parks. The research education outreach gains 
we have made through these institutions highlight our need to 
continue supporting such efforts in the future. I appreciate 
Representative Lujan's leadership to introduce H.R. 2979, a 
bill to authorize these research parks permanently, and I look 
forward to hearing the witnesses' comments and suggestions for 
improving the bill.
    In today's hearing, we will also discuss the work being 
done in the climate and environment sciences through the 
Department of Energy's Office of Science. Environmental 
remediation and cleanup, climate modeling, atmospheric and 
environmental system science are the major priorities of this 
program. Each of these research areas presents significant 
challenges that require substantial financial commitments, but 
they are challenges that we must meet and I am interested to 
hear from our witnesses on the strengths and weaknesses of 
these research efforts.
    Mr. Chairman, I should also point out that this is the last 
time that my senior LA, Philip Van Steenburgh, will be with us 
in Science. I think this really is the last time he is going to 
be with us. He left once before and came back, so we are hoping 
that--I keep doing this. Once a year maybe I will have this 
farewell to Philip from the Science Committee and then he will 
come back. But this time he may be going away for good to work 
at Capitol Hill Baptist Church and then off to seminary after 
that, but who knows. Maybe he will decide that the ministry of 
the Science Committee is a good thing to commit to. We will see 
if we can get him back. What do you think, Mr. Chairman?
    Chair Baird. Philip, I want to thank you for your service. 
I hope you have more success with your next flock than you have 
had with this one. We are a much more recalcitrant bunch, I am 
afraid, but we are all deeply indebted to the work of staff on 
both sides of the aisle and I thank Mr. Inglis for 
acknowledging your contribution. I wish you all the best in 
your future role.
    Mr. Inglis. Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Mr. Inglis follows:]
            Prepared Statement of Representative Bob Inglis
    Good morning, and thank you for holding this hearing, Mr. Chairman.
    It has been thirty-seven years since the first environmental 
research park was established at the Savannah River Site in Aiken, 
South Carolina. Now, nearly four decades later, we profit from seven 
such research parks, each contributing a unique piece to our national 
environmental and ecological research portfolio.
    I wonder how many blind spots we would have in our understanding of 
our various ecosystems within this country, were it not for the 
commitment and vision of those who first established these parks? The 
research, education, and outreach gains we've made through these 
institutions highlight our need to continue supporting such efforts in 
the future. I appreciate Representative Lujan's leadership to introduce 
H.R. 2729, a bill to authorize these research parks permanently, and I 
look forward to hearing the witnesses' comments and suggestions for 
improving the bill.
    In today's hearing, we will also discuss the work being done in 
Climate and Environmental Sciences through the Department of Energy's 
Office of Science. Environmental remediation and cleanup, climate 
modeling, atmospheric and environmental system science are the major 
priorities of this program. Each of these research areas presents 
significant challenges that require substantial financial commitments. 
But they are challenges we must meet, and I'm interested to hear from 
our witnesses on the strengths and weaknesses of these research 
efforts.
    Thank you again for holding this hearing, Mr. Chairman.

    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good Morning. Thank you, Mr. Chairman, for holding today's hearing 
to examine Department of Energy (DOE) programs in environmental 
research and to receive testimony on legislation H.R. 2729, To 
authorize the designation of National Environmental Research Parks 
(NERP) by the Secretary of Energy.
    As this committee's passage of the National Climate Service Act of 
2009 indicated, measuring and predicting the impact of climate 
variation will be central to a sustainable energy policy. The 
experiments and observations conducted at DOE-sponsored research 
facilities will help scientists and policy makers protect our 
ecosystems, resources, and infrastructure from the effects of a 
changing climate. At the center of these research efforts are the seven 
NERP facilities. Located in six distinct ecosystems, including the 
prairies of Illinois, these cutting edge facilities conduct research 
and provide information regarding the impact of energy and nuclear 
policy on the environment.
    Though the NERPs play a unique and important role in DOE 
environmental research, they are not officially authorized by Congress 
and do not receive a dedicated funding stream through the 
appropriations process. My colleague, the gentleman from New Mexico, 
Mr. Lujan, has introduced legislation to officially authorize and fund 
the NERPs. I am interested to hear from our witnesses today how this 
authorization would impact their work, and what recommendations they 
have for this committee as we consider this legislation.
    I am also interested to hear from Dr. Bader regarding his work with 
the Intergovernmental Panel on Climate Change. As my colleagues and I 
have recognized on this committee, climate change is an international 
problem. I would like to hear from Dr. Bader how research is 
coordinated at the international level and how this committee can 
support the DOE Office of Science in its efforts to remain at the 
forefront of environmental research.
    I welcome our panel of witnesses, and I look forward to their 
testimony. Thank you again, Mr. Chairman.

    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Good morning, Mr. Chairman.
    Our environment has been subjected to great contamination over the 
past century.
    The Department of Energy has specific research programs to measure, 
model, and predict the transport and fate of environmental 
contaminants.
    It is very important to be able to determine where contaminants 
travel in the environment.
    As our nation invests more in nuclear power and other alternative 
energy sources, these power plants will become old. They will need to 
be modified or decommissioned.
    An understanding of how to appropriately dismantle a nuclear power 
plant is a key question that research at the Department of Energy helps 
to fund.
    In cases such as radiation spills or leaks, this research is also 
of great importance.
    Texas Tech has a strong research program in this area. Researchers 
there study the impacts of some of the world's worst radioactive 
accidents.
    Teams of experts investigate radiological, genetic, and biological 
impacts in settings contaminated with radiation.
    Activities such as drilling for natural gas can lead to accidental 
environmental contamination.
    In Texas, radioactive elements rose to the surface, along with the 
Barnett Shale's natural gas, at drilling sites.
    Once above ground, the chemicals may remain suspended in the water 
produced from the well. Otherwise, they fall from their own weight and 
accumulate.
    Statewide, 140 such ``hot'' sites were decontaminated from January 
2005 to the 2007, according to documents from the Texas Department of 
State Health Services, which oversees disposal of the state's hottest 
radioactive waste.
    Moreover, 25 of those decontamination sites were in Denton, Tarrant 
and Wise counties, the core counties of the Barnett Shale. These areas 
are near my Congressional District.
    It is clear that more research should be done to determine the 
relative risk of various human activities, whether it is drilling or 
energy and radiation research.
    We must do all that we can do understand the impacts of these 
activities on human health.
    Mr. Chairman, you may know that I chair the Transportation 
Subcommittee on Water Resources and Environment.
    Recently, I traveled to Tennessee to see, first-hand, the effects 
of the environmental disaster caused by the coal ash spill in Kingston.
    Many people's lives will forever be impacted by that spill.
    We need good information on how to safeguard the public from 
chemical and radiological impacts. We also need better oversight to see 
that safety standards are being followed.
    It is far better to prevent environmental disasters of this nature 
than to clean up afterwards.
    There is untold damage that is likely to become apparent years 
later in the long-term health of the people living in that area.
    The National Environmental Research Parks are well-positioned to 
continue to provide research leadership and expertise in this area.
    Whether the topic is carbon dioxide, radiation, or some other 
chemical, the research parks study the movement and impacts of these.
    I want to welcome today's witnesses. We have a varied set of 
perspectives today, and I look forward to your views on environmental 
research supported by the Department of Energy.

    Chair Baird. Thank you, Mr. Inglis.
    It is my pleasure to introduce our witnesses at this time. 
Dr. Paul Hanson is the Ecosystem Science Group Leader at Oak 
Ridge National Laboratory. Dr. David Bader will testify on his 
role as Director of the Program for Climate Model Diagnosis and 
Intercomparison. Dr. Whit Gibbons is Professor Emeritus of 
Ecology at the University of Georgia and Head of the 
Environmental Outreach and Education Program at the Savannah 
River Ecology Laboratory. At this time I will yield again to 
Mr. Lujan to introduce our other witness.
    Mr. Lujan. Thank you very much, Mr. Chairman, for allowing 
me to introduce our witness from Los Alamos National 
Laboratory. I am happy to welcome Dr. Nate McDowell to share 
his expertise on these important issues with us today. Dr. 
McDowell is the Director of the Los Alamos Environmental 
Research Park and a Lead Researcher in the Earth and 
Environmental Sciences Division at Los Alamos National 
Laboratory. Today Dr. McDowell will testify on research and 
educational activities conducted by the Los Alamos National 
Research Park. Dr. McDowell brings extensive experience and 
insight to us, especially in the areas of physiological and 
ecosystem ecology. Dr. McDowell, thank you very much for being 
with us today.
    Chair Baird. Thank you, Mr. Lujan. As the witnesses can 
tell, you have a very interested group here. All of us have 
both personal and professional interest in your work and we are 
grateful for your remarks today. I want to acknowledge the 
presence of Ms. Giffords from Arizona. Thank you, Ms. Giffords.
    With that, I would begin with our first witness, Dr. 
Hanson.

  STATEMENT OF DR. PAUL J. HANSON, DISTINGUISHED RESEARCH AND 
  DEVELOPMENT SCIENTIST, OAK RIDGE NATIONAL LABORATORY; CHIEF 
 SCIENTIST, PROGRAM FOR ECOSYSTEM RESEARCH, U.S. DEPARTMENT OF 
                             ENERGY

    Dr. Hanson. Good morning, Mr. Chairman and other Members of 
the Committee. I am Dr. Paul J. Hanson. I hold the position of 
Distinguished Research and Development Scientist at Oak Ridge 
National Laboratory. I appreciate the opportunity to discuss 
the Department of Energy Office of Science's support for 
environmental research.
    My comments will highlight advances in climate change 
science gained through past and current support of terrestrial 
ecosystem research, summarize conclusions of the scientific 
community about the need for next-generation experiments and 
measurements, and describe the importance of the DOE National 
Environmental Research Parks as a protected land resource.
    The Office of Science is an essential supporter of 
fundamental research for understanding of environmental effects 
associated with the application and use of energy technologies. 
The Office of Science Research has clarified and quantified the 
dominant role of the terrestrial carbon cycle in moderating 
atmospheric greenhouse gas concentrations. This achievement has 
been accomplished through sustained support of landscape-scale 
carbon, water and energy exchange measurements in important 
global biomes.
    The Office of Science also encourages and enables large-
scale innovative experiments operating over multiple years. 
Long-term support of elevated carbon dioxide exposure studies 
in a range of ecosystems is one example. Those studies have 
demonstrated enhanced terrestrial carbon uptake into both plant 
biomass and soil carbon pools. The uptake capacity is reduced, 
however, when nutrient limitations or water stress become key 
constraints.
    Long-term and large-scale precipitation manipulations 
designed to induce severe drought have revealed a tremendous 
contrast between the resilience of trees in wet eastern 
ecosystems and the vulnerability of trees in dry western 
environments.
    Warming studies, both completed and ongoing, demonstrate a 
complex mixture of responses including extended growth periods 
and enhanced plant growth. Such arguably beneficial responses 
are contrasted with warming-induced losses of important 
greenhouse gases to the atmosphere and the acceleration of 
drought occurrences.
    Notwithstanding progress to date, new and more complex 
research is still needed to improve our understanding of 
fundamental mechanisms surrounding carbon release from long-
term biological storage pools and the vulnerability of species 
in the face of rapid climate change. The absence of such 
mechanisms within ecological models undermines our current 
ability to provide policy-relevant predictions of both climate 
change impacts and future greenhouse gas trajectories from 
those ecosystems.
    Long-lived organisms and virtually all ecological 
communities that we recognize today will experience unique 
climates in the future. Therefore, controlled experiments which 
allow us to manipulate a wide range of environmental conditions 
are the preferred method for characterizing ecosystem responses 
and feedbacks.
    Important environmental drivers to be studied in new 
combinations and at multiple treatment levels include 
temperature, water availability, atmospheric CO<INF>2</INF> 
concentration and rising sea level in the case of low relief 
coastal ecosystems.
    The DOE National Environmental Research Parks are 
distributed across the United States in a wide variety of 
ecosystems from deciduous and pine forests in the East to arid 
ecosystems in the West. These research parks provide protected 
land areas appropriate for conducting climate change 
manipulations and for measuring ecosystem functions under 
changing environmental conditions.
    Several globally extensive biomes associated with priority 
carbon cycle feedback questions are not, however, represented 
within DOE's National Environmental Research Park network. In 
those cases, it will be necessary for DOE to partner with other 
landowners to develop and conduct the necessary experiments and 
measurements to advance the science of climate change.
    By funding multi-disciplinary science at national 
laboratories and universities, the DOE Office of Science plays 
a dominant role in the support of terrestrial ecosystem studies 
to understand the fate and function of global land surfaces and 
their role in the Earth system. Only through the development of 
an integrated understanding of multiple interacting 
environmental effects can the scientific community generate 
appropriate prognostic models to inform Congress and the public 
about the capacity of our ecosystems to provide goods and 
services for society under projected rapid rates of climate 
change.
    Thank you for the opportunity to provide testimony. I would 
be happy to answer questions.
    [The prepared statement of Dr. Hanson follows:]
                  Prepared Statement of Paul J. Hanson
    Good morning Mr. Chairman and other Members of the Committee. I am 
Dr. Paul J. Hanson. I hold the position of Distinguished Research and 
Development Scientist at Oak Ridge National Laboratory. I also serve as 
the Chief Scientist for the Department of Energy's Program for 
Ecosystem Research. I appreciate the opportunity to discuss the 
Department of Energy, Office of Science's support for environmental 
research.
    My comments will (1) highlight advances in climate change science 
gained through past and current support of terrestrial ecosystem 
research, (2) summarize conclusions of the scientific community about 
the need for next-generation experiments and measurements, and (3) 
describe the importance of the DOE National Environmental Research 
Parks as a protected land resource.
    The Office of Science is an essential supporter of fundamental 
research for understanding environmental effects associated with the 
application and use of energy technologies. Recent research in this 
area has focused on developing an understanding of how climatic and 
atmospheric changes can modify the form and function of terrestrial 
ecosystems.
    Office of Science research has clarified and quantified the 
dominant role of the terrestrial carbon cycle in moderating atmospheric 
greenhouse gas concentrations. This achievement has been accomplished 
through sustained support of landscape-scale carbon, water, and energy 
exchange measurements in important global biomes.
    The Office of Science also encourages and enables large-scale 
innovative experiments operating over multiple years. Long-term support 
of elevated carbon dioxide (CO<INF>2</INF>) exposure studies in a range 
of ecosystems is one example. Those studies have demonstrated enhanced 
terrestrial carbon uptake into both plant biomass and soil carbon 
pools. The uptake capacity is reduced, however, when nutrient 
limitations or water stress become key constraints. Terrestrial 
components of the global carbon cycle must be known to calculate fossil 
fuel use impacts on global greenhouse gas accumulation in the 
atmosphere.
    Long-term and large-scale precipitation manipulations designed to 
induce severe drought have revealed a tremendous contrast between the 
resilience of trees in wet eastern ecosystems and the vulnerability of 
trees in dry western environments.
    Warming studies, both completed and ongoing, demonstrate a complex 
mixture of responses, including extended annual growth periods and 
enhanced nutrient mineralization resulting in increased plant growth. 
Such arguably beneficial responses are contrasted with warming-induced 
losses of important greenhouse gases to the atmosphere (CO<INF>2</INF> 
and methane) and the acceleration of drought conditions.
    The Office of Science has also pioneered studies to apply state-of-
the-science technologies, molecular analyses, and genetic methods to 
the evaluation of ecosystem-scale responses to climatic and atmospheric 
changes.
    Notwithstanding progress to date, new and more complex research is 
still needed to improve our understanding of fundamental mechanisms 
surrounding carbon release from long-term biological storage pools and 
the vulnerability of species in the face of rapid climate change. The 
absence of such mechanisms within ecological models undermines our 
current ability to provide policy-relevant predictions of both climate 
change impacts and future greenhouse gas trajectories from those 
ecosystems.
    Long-lived organisms and virtually all ecological communities that 
we recognize today will experience unique climates in the future. 
Therefore, controlled experiments, which allow us to manipulate a wide 
range of environmental conditions, are the preferred method for 
characterizing ecosystem responses and feedbacks.
    Recent scientific committees and workshops concluded that available 
experimental data are insufficient to address the complexity of climate 
change impacts and feedbacks associated with terrestrial ecosystems 
(e.g., Dickinson et al., 2008; Ehleringer et al., 2006; Hanson et al., 
2008; NRC, 2007). Existing studies have not used a sufficiently wide 
range of temperatures and CO<INF>2</INF> concentrations, nor have 
multi-factor manipulations been attempted in key ecosystems.
    Important environmental drivers to be studied in new combinations 
and at multiple treatment levels include temperature, water 
availability, atmospheric CO<INF>2</INF> concentration, and rising sea 
level in the case of low relief, coastal ecosystems. The scientific 
community has concluded that future experiments will be most realistic 
and useful if they are (1) conducted at ecosystem scales; (2) address 
multi-factor environmental changes; (3) include multi-level treatments; 
and (4) integrate with process modeling during conceptualization, 
operation, and following the completion of experiments.
    New research to understand climate change impacts must be 
conceptually relevant to many ecosystems, and therefore provide 
mechanistic outputs translatable across ecosystems. New research on 
carbon cycle feedbacks from ecosystems should prioritize spatially 
extensive high-latitude ecosystems and tropical forested regions with a 
correspondingly large potential to impact the Earth's climate (e.g., 
boreal and arctic biomes, and wet tropical forests of Latin and South 
America, Africa, and southeast Asia).
    The DOE National Environmental Research Parks are distributed 
across the United States in a wide variety of ecosystems, from 
deciduous and pine forests in the east to arid ecosystems in the west. 
These research parks provide protected land areas appropriate for 
conducting climate change manipulations and for measuring ecosystem 
functions under changing environmental conditions. DOE-managed federal 
lands represent an important resource for research. For example, the 
National Ecological Observation Network of the National Science 
Foundation has identified the Oak Ridge Reservation as a core wild land 
site for their planned long-term measurements of environmental change. 
Long-term observations of pine mortality on the Los Alamos Reservation 
have also provided insights into plausible climate change implications 
(i.e., drought exacerbated under climate change may force mortality of 
important species).
    Several globally extensive biomes associated with priority carbon 
cycle feedback questions (defined above) are not, however, represented 
within DOE's NERP network. In those cases, it will be necessary for DOE 
to partner with other land owners (such as other federal agencies, 
states, and private landholders) to develop and conduct the necessary 
experiments and measurements to advance the science of climate change.
    To conclude:
    By funding multi-disciplinary science at national laboratories and 
universities, the DOE Office of Science plays a dominant role in the 
support of terrestrial ecosystem studies to understand the fate and 
function of global land surfaces and their role in the Earth system. 
The scientific community looks to the Office of Science for guidance 
and necessary support to enable complex next-generation experiments and 
measurement systems.
    Only through the development of an integrated understanding of 
multiple, interacting environmental effects can the scientific 
community generate appropriate prognostic models to inform Congress and 
the public about the capacity of our ecosystems to provide goods and 
services for society under projected rapid rates of climate change.
    Thank you for the opportunity to provide testimony. I am pleased to 
answer any questions.

References:

Dickinson RE, Meehl GA, et al. (2008) Identifying Outstanding Grand 
        Challenges in Climate Change Research: Guiding DOE's Strategic 
        Planning. A report of the DOE/BERAC Workshop, 25-27 March 2008, 
        Crystal City, Virginia available at http://www.sc.doe.gov/ober/
        berac/Grand<INF>-</INF>Challenges<INF>-</INF>Report.pdf

Ehleringer J, Birdsey R, Ceulemans R, Melillo J, Nosberger J, Oechel W, 
        Trumbore SE (2006) Report of the BERAC Subcommittee Reviewing 
        the FACE and OTC Elevated CO<INF>2</INF> Projects in DOE. White 
        paper report submitted to the U.S. Department of Energy, 16 
        October 2006, 23 p. available at http://www.sc.doe.gov/ober/
        berac/FACE<INF>-</INF>2006<INF>-</INF>report.pdf

Hanson PJ, Classen A, Kueppers L, Luo Y, McDowell NG, Morris J, Rogers 
        A, Thornton P, Ceulemans R, Dukes J, Goulden M, Jackson R, 
        Knapp A, Kirschbaum M, Lewin K, MacCracken M, Melillo J, 
        Ringler T, and Workshop Participants (2008) Ecosystem 
        Experiments: Understanding Climate Change Impacts on Ecosystems 
        and Feedbacks to the Physical Climate. A community white paper 
        workshop report available at http://per.ornl.gov/
        Experiment<INF>-</INF>Workshop<INF>-</INF>Report<INF>-</INF>16Ju
        ne08.pdf or http://www.sc.doe.gov/ober/
        Ecosystem%20Experiments.pdf

National Research Council of the National Academies (NRC) (2007) 
        Understanding Multiple Environmental Stresses: Report of a 
        Workshop. Committee on Earth-Atmosphere Interactions: 
        Understanding and Responding to Multiple Environmental 
        Stresses, Board on Atmospheric Sciences and Climate, Division 
        on Earth and Life Studies, The National Academies Press, 
        Washington, D.C., 142 p.

    DOE WWW Resources:

         DOE, Office of Science
                 http://www.sc.doe.gov

         Climate and Environmental Sciences Division
                 http://www.sc.doe.gov/ober/CCRD<INF>-</INF>top.html

         Program for Ecosystem Research (PER)
                 http://www.sc.doe.gov/ober/CCRD/per.html

         Terrestrial Carbon Processes (TCP) program
                 http://www.sc.doe.gov/ober/CCRD/tcp.html

         National Environmental Research Parks
                 http://www.nerp.ornl.gov/index.html

         National Ecological Observatory Network (NEON)
                 http://www.neoninc.org/domains/appalachians

                      Biography for Paul J. Hanson
    Dr. Paul J. Hanson is a Distinguished Research and Development 
Staff Member of the Environmental Sciences Division, Oak Ridge National 
Laboratory, Oak Ridge, Tennessee. He graduated summa cum laude with a 
B.A. degree in biology from St. Cloud State University, St. Cloud, 
Minnesota, in 1981. Dr. Hanson also received M.S. and Ph.D. degrees 
from the University of Minnesota, St. Paul in the fields of plant and 
forest tree physiology, in 1983 and 1986, respectively. Dr. Hanson's 
current research focuses on the impacts of climatic change on the 
physiology, growth, and biogeochemical cycles of eastern deciduous 
forest ecosystems. Dr. Hanson has also conducted research on the 
impacts of air pollutant oxidants on forest plant physiology and growth 
(ozone and hydrogen peroxide), the deposition of gaseous nitrogen 
compounds to plant surfaces, and the exchange of mercury vapor between 
terrestrial surfaces and the atmosphere. He has authored or co-authored 
over 100 journal articles and book chapters, and has co-edited (and 
authored) a book titled ``North American Temperate Deciduous Forest 
Responses to Changing Precipitation Regimes'' published in 2003 as 
volume 166 of the Springer Ecological Studies series. Dr. Hanson is 
actively serving as an Editor of Global Change Biology, and in the 
advisory position of Chief Scientist for the U.S. Department of 
Energy's Program for Ecosystem Research. Dr. Hanson previously served 
as an Associate Editor of the Journal of Environmental Quality (1995-
2000), and was a member of the Editorial Review Board of Tree 
Physiology from 1994 to 2004. He was a member of the U.S. Department of 
Energy's National Technical Advisory Committee for the National 
Institute of Global Environmental Change (NIGEC) from 2002 to 2004, and 
has served on a number of peer-review panels for the evaluation of 
scientific proposals. Dr. Hanson received the 1995 Distinguished 
Scientific Achievement Award from the Environmental Sciences Division, 
Oak Ridge National Laboratory, and was elected a Fellow of the American 
Association for the Advancement of Science in 2008.

    Chair Baird. Thank you, Dr. Hanson.
    Dr. Bader.

 STATEMENT OF DR. DAVID C. BADER, PROGRAM MANAGER FOR CLIMATE 
         CHANGE RESEARCH, OAK RIDGE NATIONAL LABORATORY

    Dr. Bader. Mr. Chairman, Congressman Inglis and Members of 
the Committee, thank you for inviting me to address the 
Committee and provide my perspective on the Department of 
Energy Office of Science's Climate Change Research Program. My 
name is David Bader, and I am the newly appointed Manager for 
Climate Change Research at Oak Ridge National Laboratory, 
supported by the Office of Science. From June 2003 until last 
Friday, I was the Director of the Program for Climate Model 
Diagnosis and Intercomparison at Lawrence Livermore National 
Laboratory.
    The PCMDI is part of the Department of Energy's Climate 
Change Prediction Program and it pioneered the concept of 
standardized climate model experiments which have been a major 
factor in the scientific advancement of climate models over the 
last 20 years. Most recently, PCMDI established and maintained 
the international global climate model output archive for the 
Fourth Assessment Report for the Intergovernmental Panel on 
Climate Change published in 2007.
    In the past, only researchers with access to modeling 
centers were able to utilize climate model results in their 
work. Now, several thousand users are able to download and 
analyze the output from all the world's major modeling groups 
from a single location in a standardized format.
    Prior to joining Lawrence Livermore, I spent over 12 years 
in various roles helping to plan, organize and manage climate 
modeling programs for the Office of Science, coincidentally as 
a member of Pacific Northwest Laboratory in Richland, 
Washington. In addition, I worked with leaders of the modeling 
programs in other federal agencies, particularly NASA, NOAA and 
NSF to develop a national climate modeling strategy as part of 
the Climate Change Science Program Strategic Plan published in 
2003. From these experiences, I gained valuable perspectives on 
the importance of climate modeling, simulation and prediction 
in preparing the Nation and the world for the future. 
Furthermore, I developed an appreciation for the critical roles 
in national and international modeling enterprise at the Office 
of Science Program and the national laboratory system plays.
    Climate models have successfully answered many questions 
regarding the role of human activities in climate change. 
Recent simulations of the observed climate over the 20th 
century are far superior to those of just a few years ago. 
Although imperfect, climate models offer the only tools to 
quantitatively estimate future climate variability and change. 
There is unanimous agreement among all the models that 
significant further global warming is likely over the next 
several decades through the end of the century under all 
reasonable greenhouse gas emission scenarios. The amount of 
projected warming, however, varies substantially among models. 
Moreover, there is considerable disagreement among the models 
as to how global-scale temperature changes will be manifested 
as changes in precipitation on regional and local scales where 
most impacts are experienced that must be dealt with.
    The demands for new information from climate simulations 
and predictions far exceed the skill of the current generation 
of models. Climate simulation and prediction is required by the 
Department of Energy as it evaluates alternative energy 
technology options to mitigate climate change many decades into 
the future. The science community must quantify, understand and 
reduce these uncertainties so that both near-term and long-term 
decisions can be guided with confidence.
    We are on the verge of transformational changes in climate 
simulation and prediction which we realize by a combination of 
enhanced understanding of how the climate system operates and 
the advent of Exascale Computing. This requires not only 
investment of dollars but also a rethinking of the 
organizational paradigms that develop and apply climate models. 
Vast knowledge and understanding has been and continues to be 
gained from investments in observational programs, particularly 
ARM and the carbon cycle programs at the Department of Energy. 
Tremendous potential exists to improve prediction capabilities 
through the integration of this knowledge with increasing 
computer power such as the current and future systems at the 
Oak Ridge National Laboratory Leadership Computing Facility 
supported by the Office of Science.
    Several key elements are needed to continue a vibrant 
climate modeling enterprise in the Office of Science. First, 
climate modeling is one of the most complex simulation problems 
in science. It requires a correct representation of highly 
interactive processes across a broad range of time and space 
scales. Future models must be developed by multi-disciplinary 
teams of climate researchers and computational scientists 
supported to achieve a common purpose. They will construct new 
models to be run on tomorrow's computers.
    Second, it must be recognized that climate model 
development, evaluation and application occurs simultaneously. 
While a new generation of models typically appears every five 
years, some aspects take much longer to complete.
    Finally, as it was demonstrated in the IPCC assessment, no 
single model is best in all respects and the community 
continues to need the results of multiple modeling groups to 
best understand climate changes, particularly at local and 
regional scales. As it turns out, the best representation is 
the average of all the models. The Nation benefits from having 
multiple groups, including those supported by the Office of 
Science.
    Thank you for this opportunity. I am willing to take any 
questions that you have.
    [The prepared statement of Dr. Bader follows:]
                  Prepared Statement of David C. Bader
    Mr. Chairman, Ranking Member Inglis, and Members of the Committee: 
Thank you for inviting me to address the Committee and provide my 
perspective Department of Energy, Office of Science's Climate Change 
Research Program.
    My name is David Bader and I am the newly-appointed manager for the 
Climate Change Research Program supported at Oak Ridge National 
Laboratory by the DOE Office of Science.
    From June 2003 until June 5 of this year, I was the Director of the 
Program for Climate Model Diagnosis and Intercomparison (PCMDI) at 
Lawrence Livermore National Laboratory. The PCMDI is part of the 
Department of Energy's Climate Change Prediction Program. Program for 
Climate Model Diagnosis and Intercomparison pioneered the concept of 
standardized climate model experiments, which has been a major factor 
in the scientific advancement of climate models over the last 20 years.
    Most recently, PCMDI established and maintained the international 
global climate model output archive for the Fourth Assessment Report of 
the Intergovernmental Panel on Climate Change (IPCC) published in 2007. 
Through the definition of standardized experiments and imposition of 
data standards, this archive revolutionized the use of climate model 
results by the international climate research community. Whereas in the 
past, only the researchers with access to the modeling centers were 
able to utilize climate model results in their work, several thousand 
users now are able to download and analyze the output from all of the 
world's major modeling groups from a single location in a standardized 
format. The IPCC has recognized the significance of this 
transformational activity by stating in its most recent Assessment, 
``In particular we wish to acknowledge the enormous commitment by the 
individuals and agencies of 14 climate modeling groups from around the 
world, as well as the archiving and distribution of an unprecedented 
amount (over 30 Terabytes) of climate model output by the Program for 
Climate Model Diagnosis and Intercomparison (PCMDI). This has enabled a 
more detailed comparison among current climate models and a more 
comprehensive assessment of the potential nature of long term climate 
change than ever before.''
    Prior to joining Lawrence Livermore, I spent over 12 years in 
various roles helping to plan, organize and manage climate modeling 
programs for the Office of Science. In addition, I worked with leaders 
of modeling programs in other federal agencies, particularly NASA, NOAA 
and NSF, to develop a national climate modeling strategy as part of the 
Climate Change Science Program Strategic Plan published in 2003. From 
these experiences, I gained valuable perspectives on the importance of 
climate modeling, simulation and prediction, in preparing the Nation 
and the world for the future. Furthermore, I developed an appreciation 
for the critical roles in the national and international modeling 
enterprise that the Office of Science program and the national 
laboratory system play.
    As documented in the U.S. Climate Change Science Program Synthesis 
and Assessment Report 3.1, ``Climate Models: An Assessment of Strengths 
and Limitations,'' (for which I was convening lead author) models have 
successfully answered many questions regarding the role of human 
activities in global climate change. Recent simulations of the observed 
climate over the twentieth century are far superior to those of just a 
few years ago.
    Although imperfect, climate models offer the only tools to 
quantitatively estimate future climate variability and change. Figure 1 
below was taken from the most recent IPCC Assessment. It shows 
unanimous agreement among all models that significant further global 
warming is likely over the next several decades through the end of the 
century under all reasonable greenhouse gas emission scenarios. The 
amount of projected warming, however, varies substantially among 
models. Moreover, there is considerable disagreement among models as to 
how global scale temperature changes will be manifested as changes in 
precipitation on regional and local scales, where most impacts will be 
experienced and must be addressed (Fig. 2).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The demands for new information from climate simulations and 
predictions far exceed the skill of the current generation of models. 
Climate simulation and prediction is required by DOE as it evaluates 
alternative technology options to mitigate climate change many decades 
into the future. The science community must quantify, understand, and 
reduce these uncertainties so that both near-term and long-term 
decisions can be guided with confidence.
    We are on the verge of transformational changes in climate 
simulation and prediction, which will be realized by the combination of 
enhanced understanding of how the climate system operates and the 
advent of Exascale computing capability. This requires not only the 
investment of dollars, but also a rethinking of the organizational 
paradigms that develop and apply climate models. Vast knowledge and 
understanding has been and continues to be gained from investments in 
observational programs and research studies. Tremendous potential 
exists to improve the prediction capabilities of models through the 
integration of this knowledge with increasing computational power, such 
as the current and future systems at the ORNL Leadership Computing 
Facility supported by the Office of Science.
    Major advancements will come from increasing the spatial resolution 
of models so that they more accurately simulate small scale atmospheric 
and oceanic phenomena, such as tropical cyclones and mesoscale 
convective complexes, that are critical to predicting not only changes 
in mean climate, but also to correctly predicting the probability of 
damaging events like floods and hurricanes. Unlike current climate 
models, the coming generation of models include explicit biogeochemical 
cycles to examine feedbacks between climate change and carbon sources 
and sinks. The Office of Science continues to invest in the Atmospheric 
Radiation Measurement (ARM) program and carbon cycle observational and 
experimental programs necessary to inform the development of these 
Earth System models. The challenge for the Office of Science is to 
accelerate the translation of knowledge gained in these programs into 
more realistic and accurate global models capable of projecting changes 
over many decades and centuries.
    Transforming climate prediction by integrating knowledge with 
computational power cannot be achieved through reductionist approaches. 
In an unprecedented multi-institutional and multi-disciplinary 
partnership, DOE laboratory computational scientists, in collaboration 
with Warren Washington at the National Center for Atmospheric Research, 
pioneered the use of massively parallel computing systems for climate 
simulation in the 1990s to produce the DOE Parallel Computing Model. 
The legacy of the collaboration continues today. The DOE Climate Change 
Prediction Program supports an interagency partnership to develop and 
apply the Community Climate System Model (CCSM), one of the three U.S. 
modeling groups contributing to the last IPCC Assessment. Department of 
Energy laboratory scientists are integral to the development of key 
pieces of the modeling system, including the ocean, sea ice and 
terrestrial carbon cycle components. Major climate change simulations 
using the CCSM are run on the Office of Science computing facilities at 
Oak Ridge and Berkeley. The emphasis today, however, has devolved to 
improvement of the pieces, and the vision for the next generations of 
climate models has been somewhat lost.
    Several key elements are needed to continue a vibrant climate 
modeling enterprise in the Office of Science. First, climate modeling 
is one of the most complex simulation problems in science. It requires 
the correct representation of highly interactive processes across a 
broad range of time and space scales. Future models will be developed 
by multi-disciplinary teams of climate researchers and computational 
scientists supported to achieve a common purpose. They will construct 
new models that can be run on tomorrow's Exascale computers. This 
computational power additionally will allow us to employ advanced 
mathematical and statistical techniques for uncertainty quantification 
practiced in other fields to better understand predictability limits of 
models.
    Second, it must be recognized that climate model development, 
evaluation and application all occur simultaneously. While a new 
generation of models typically appears every five years, some aspects 
of model development take much longer to complete. This puts a 
tremendous strain on all of the elements of the modeling community. The 
long-term commitment to maintain a core infrastructure of people and 
computational capabilities is needed to support such an enterprise. The 
resources and capabilities of the national laboratory system meet those 
needs, but cooperation among the laboratories requires a common 
direction and purpose articulated by the Office of Science program 
management.
    Last, as was demonstrated in the IPCC Assessment, no single model 
is the best in all respects and the community continues to need the 
results of multiple modeling groups to best understand potential 
climate changes, particularly at local and regional scales. As it turns 
out, the best representation of current climate is achieved by 
averaging the results from all of the models participating in the 
coordinated experiments. The Nation benefits from having multiple 
groups, including the CCSM partnership supported by the Office of 
Science.
    In the past, the Office of Science executed a successful climate 
modeling strategy by providing long-term support for teams of 
researchers from its national laboratories and academic stable of 
investigators. Continued support will lead to even greater success.
    Mr. Chairman, I want to thank you and Members of the Committee for 
the opportunity to appear today. I would be pleased to answer any 
questions you may have.

                      Biography for David C. Bader

EDUCATION

1985 Ph.D., Atmospheric Science, Colorado State University

1981 MS, Atmospheric Science, Colorado State University

1979 BS (with Distinction), Engineering Science, Colorado State 
University

POSITIONS

2009-present, Program Manager, Oak Ridge National Laboratory

2003-2009, Scientist, Lawrence Livermore National Laboratory

1992-2003, Project Manager at Pacific Northwest National Laboratory 
(PNNL)

1985-1992, Research Scientist/Senior Research Scientist at PNNL

PROFESSIONAL EXPERIENCE

    David C. Bader is the Manager for the DOE Office of Biological and 
Environmental Research's climate research programs at Oak Ridge 
National Laboratory. From June 2003 until June 2009, he was the 
Director, Program for Climate Model Diagnosis and Intercomparison, 
which coordinates major international climate model evaluation and 
intercomparison activities for the World Climate Research Program. He 
is also Chief Scientist for the U.S. Department of Energy's Climate 
Change Prediction Program. From 1990 to 2002, he developed and managed 
climate modeling and computational research programs for DOE's Office 
of Science, and was the agency's principal representative for climate 
research and climate modeling to interagency working groups and 
committees. He was a lead author of the interagency U.S. Climate Change 
Science Program Strategic Plan Chapter 10 on Modeling Strategy, and in 
2001 was Chairman of the interagency Climate Change Research Initiative 
(CCRI) Working Group on Climate Modeling. He was the U.S. Government 
review coordinator of the climate model evaluation chapters in the 
Working Group I contributions to the IPCC Second Assessment Report and 
Third Assessment Report.

SYNERGISTIC ACTIVITIES

2008-present--Member of CCSM Scientific Steering Committee

2008-present--Member of the AMS Committee on Applied Climatology

2006-2008--Convening Lead Author Climate Change Science Program 
        Synthesis and Assessment Report 3.1 Climate Models: An 
        Assessment of Strengths and Limitations for User Applications

2007--Joint Subcommittee, DOE Office of Biological and Environmental 
        Research and Office of Advanced Scientific Computing Research 
        Advisory Committees

2005-2007--NRC Committee on Archiving Environmental and Geospatial Data 
        at NOAA

2004-2005--NASA Advanced Modeling and Simulation Capability Roadmap 
        Committee

2004--Global Change Subcommittee, DOE Office of Science Biological and 
        Environmental Research Advisory Committee

2003--NSF Steering Committee for Cyberinfrastructure Research and 
        Development in the Atmospheric Sciences

2000--Member of the White House Office of Science and Technology Policy 
        Ad Hoc Working Group on Climate Modeling, which prepared the 
        report High-end Climate Science: Development of Modeling and 
        Related Computing Capabilities for the U.S. Global Change 
        Research Program.

RECENT PUBLICATIONS

Caldwell, P., H.S. Chin, D.C. Bader and G. Bala, 2009: Evaluation of a 
        WRF Dynamical Downscaling Simulation over California, 
        ``Climatic Change,'' (in press).

Climate Models: An Assessment of Strengths and Limitations. A Report by 
        the U.S. Climate Change Science Program and the Subcommittee on 
        Global Change Research [Bader D.C., C. Covey, W.J. Gutowski 
        Jr., I.M. Held, K.E. Kunkel, R.L. Miller, R.T. Tokmakian and 
        M.H. Zhang (Authors)]. Department of Energy, Office of 
        Biological and Environmental Research, Washington, D.C., USA, 
        124 pp.

Bala, G., R.B. Rood, D. Bader, A. Mirin, D. Ivanova, and C. Drui 
        (2008), Simulated climate near steep topography: Sensitivity to 
        numerical methods for atmospheric transport, Geophys. Res. 
        Lett., 35, L14807, doi:10.1029/2008GL033204.

Bala, G., R.B. Rood, A. Mirin, J. McClean, K. Achutarao, D. Bader, P. 
        Gleckler, R. Neale, and P. Rasch, 2008: Evaluation of a CCSM3 
        Simulation with a Finite Volume Dynamical Core for the 
        Atmosphere at 1<SUP>+</SUP> Latitude  1.25<SUP>+</SUP> 
        Longitude Resolution. J. Climate, 21, 1467-1486.

Phillips, T.J., K. Achutarao, D. Bader, C. Covey, C.M. Doutriaux, M. 
        Fiorino, P.J. Gleckler, K.R. Sperber and K.E. Taylor. 2006. `` 
        Coupled Climate Model Appraisal: A Benchmark for Future 
        Studies.'' Eos, Trans. AGU. 87:185, 191-193.

Covey, C., P.J. Gleckler, T.J. Phillips, D.C. Bader. 2006. ``Secular 
        Trends and Climate Drift in Coupled Ocean-Atmosphere General 
        Circulation Models.'' J. Geophys. Res. (Atmos.) 111, D03107, 
        doi: 10.1029/2005JD06009.

Bader, D., A. Bamzai, J. Fein, A. Patrinos and M. Leinen. 2005. ``The 
        Community Climate System Model Project from an Interagency 
        Perspective.'' Eos, Trans. AGU. 86:309-310.

    Chair Baird. Thank you, Dr. Bader.
    Dr. McDowell.

   STATEMENT OF DR. NATHAN G. MCDOWELL, STAFF SCIENTIST AND 
 DIRECTOR OF THE LOAS ALAMOS ENVIRONMENTAL RESEARCH PARK, LOS 
                   ALAMOS NATIONAL LABORATORY

    Dr. McDowell. Good morning, Chairman Baird, Ranking Member 
Inglis and Members of the Subcommittee. My name is Nate 
McDowell and I am a Staff Member at Los Alamos National 
Laboratory and Director of our Environmental Research Park. I 
am honored to join my colleagues to speak with you today 
regarding the strategic value of these parks to the Department 
of Energy and to the Nation. Although I have only been a staff 
member at Los Alamos since 2004, I have published over 40 
papers, approximately one-third of which were derived directly 
from research done at the Environmental Research Park at Los 
Alamos.
    There are three points I would like to highlight for the 
Subcommittee today. First, what are the Environmental Research 
Parks? You have already summarized it but I will briefly go 
over it. They were established between 1972 and 1992 across the 
DOE complex. The charter of the parks is to assess, monitor and 
predict the environmental impact of human energy use and other 
human activities. Research at the parks includes measuring 
terrestrial ecosystem processes such as carbon and water 
cycling, testing ecosystem management options, monitoring of 
endangered species, virus threats, pollution and hydrology, 
just to name a few.
    Second, why are these research parks important today? I 
would like to highlight this with an example from Los Alamos. 
When I first arrived in Los Alamos, the view outside of my 
office window was of a landscape full of dead and dying pine 
trees. In fact, we observed 97 percent mortality rate at the 
Los Alamos Research Park following a drought that has been 
labeled as a climate change-type drought because it was a 
particularly warm drought, a particularly wet and warm drought. 
Though everyone knows that drought and beetles combine to kill 
trees, no one could actually explain to me which trees will die 
and which ones won't, and no one could predict when this will 
happen again in the future or where it will happen. This 
challenge remains true today, particularly because there are an 
increasing number of observations throughout the world of 
increasing mortality rates of forests and there is increasing 
concern that the mortality will be exacerbated by climate 
change such as warming and drying.
    Though the mortality event was depressing for people 
throughout the Southwest, we were fortunate at Los Alamos that 
the scientists had maintained measurements of the impact of 
climate on pine trees for over a decade preceding the mortality 
event, allowing rapid detection of the onset of the mortality 
and the first ever documentation of how trees die. These 
globally novel observations spawned new research supported by 
DOE's Office of Biological and Environmental Research. This new 
research is devoted ultimately to improving models of climate 
change. If those long-term measurements had not existed, we 
would be far behind our current understanding of tree death.
    Third, why are the National Environmental Research Parks 
the right place for research regarding greenhouse gases and the 
impacts of climate on ecosystems? There is a multitude of 
reasons. To name a few, they are located throughout the United 
States in regions that are representative of large areas of the 
world. This can allow the results to be meaningful and policy 
relevant. Due to our already strong collaborations, the 
research parks complement existing efforts throughout America 
such as those at NOAA, AmeriFlux and DOE's climate change 
programs. They have the rare combination of protected 
landscapes and existing infrastructure for continuous 
observations and for large-scale experiments such as 
manipulations of rainfall to simulate drought. The parks have 
enabled extremely long-term data sets that allow us to capture 
extreme events and to detect long-term trends versus short-term 
variability, the baseline you referenced earlier. And finally, 
the parks already have educational programs in place for 
students of all ages, K to 12 to graduate school, enabling us 
to educate the next generation of scientists and the public as 
well.
    In conclusion, the National Environmental Research Parks 
are a valuable yet underutilized network of sites that can be 
used as part of an early warning network for ecological 
impacts. The parks can also be applied to develop techniques to 
detect greenhouse gas emissions and to conduct fundamental 
research in line with the original research parks charter.
    I applaud the Subcommittee's efforts to establish a 
mechanism for sustained funding for the parks. I would be 
pleased to answer any questions you have. Thank you.
    [The prepared statement of Dr. McDowell follows:]
                Prepared Statement of Nathan G. McDowell

Introduction:

    Good morning Chairman Baird, Ranking Member Inglis, and Members of 
the Subcommittee. I am honored to speak with you today regarding the 
strategic value of the Department of Energy's (DOE) National 
Environmental Research Parks (NERP). I am Nate McDowell, a staff 
scientist at Los Alamos National Laboratory (LANL) and Director of the 
Los Alamos Environmental Research Park. To date, LANL has produced 130 
peer-reviewed scientific publications based on research conducted at 
the Los Alamos Environmental Research Park, including many that were 
high impact largely because they included long-term data sets that 
captured extreme climatic events.
    I obtained my Ph.D. in Tree Physiology from Oregon State 
University's College of Forestry in 2002, my M.Sc. in Ecosystem 
Processes from the University of Idaho's College of Natural Resources 
in 1998, and my B.Sc. in Biology from the University of Michigan in 
1994. During these formative years, I learned to think critically about 
the fundamental regulation of ecosystem function in response to 
management methods and climate. In the five years that I have been a 
staff scientist at LANL, my research focus has grown to consider 
ecosystems from the perspective of national security, in which 
sustained ecosystem productivity is a critical resource.
    A key piece of my research deals with the theory, instrumentation 
and models needed to monitor and understand how CO<INF>2</INF> moves in 
and out of an ecosystem. I created and am also the Director of the Los 
Alamos Tunable Diode Laser Facility located within our Environmental 
Research Park. This unique Facility is devoted to monitoring and 
understanding the exchange of carbon dioxide between terrestrial 
ecosystems and the atmosphere in response to climate variability. The 
laser measures the isotopic composition of CO<INF>2</INF> exchanged by 
the plants (Bickford et al., 2009), animals (Engle et al., 2009) and 
ecosystems we study (McDowell et al., 2008a), allowing us to trace the 
source and cause of shifts in carbon storage. For example, if an 
ecosystem undergoes a large emission of CO<INF>2</INF>, we can 
determine why this has occurred. Likewise, we employ our laser facility 
to determine if specific CO<INF>2</INF> emissions come from biological 
or from fossil fuel sources; this application may help address a huge 
technological challenge that lies ahead for any global cap and trade 
verification system. My team has built strong collaborations with 
others studying climate impacts, including over 20 academic 
institutions, other National Laboratories, the Environmental Protection 
Agency, the Forest Service and the Agricultural Research Service. Our 
rate and quality of publications is currently undergoing a dramatic 
rise due to support from DOE's Office of Science-Office of Biological 
and Environmental Research and to the growing societal urgency 
associated with understanding and predicting climate impacts on 
terrestrial ecosystems.
    My testimony will focus on the pressing need to quantify, 
understand, predict, and manage the response of terrestrial ecosystems 
to climate, and on the value of the National Environmental Research 
Parks as an essential American resource for understanding these 
impacts.

What are the National Environmental Research Parks? The National 
Environmental Research Parks were formally created in the 1970's 
following passage of the National Environmental Policy Act (1969). As 
specified by the Department of Energy in 1976, the charter of the 
Environmental Research Parks is to assess, monitor and predict the 
environmental impact of energy use and other human activities. 
Scientists within the Research Parks are expected to develop methods 
for observation, experimentation, and prediction of environmental 
impacts, to inform the public of their results, and to train future 
environmental scientists. Lastly, the Parks are intended to improve 
access to non-federal researchers while capitalizing on the protected 
nature of the DOE land holdings. Current and past research at the Parks 
includes not only measuring terrestrial ecosystem processes such as 
carbon and water cycling, but also determining ecosystem management 
options, and monitoring of endangered species, animal dynamics, virus 
threats, pollution and hydrology (Dale and Parr, 1998).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Nearly all of the Parks have formal educational components. At Los 
Alamos, there are numerous K-12, undergraduate and graduate programs 
that capitalize on the Research Park for exposing students to 
environmental science, such as geology, carbon cycling, and climate. 
There are specific programs directed towards undergraduates, high 
school students, minorities and Native Americans. Los Alamos staff 
scientists frequently donate their time to these programs. 
Additionally, numerous student interns conduct research within the Park 
under staff supervision each year.
    The Research Parks are located in six major vegetative zones, 
representative of over half of the American landscape (Figure 1). The 
Research Parks contain large swaths of land--they are five times larger 
than the National Science Foundation's Long-Term Ecological Research 
sites (NSF-LTER)--making replication and large scale experiments 
possible to ensure that the results are meaningful to larger areas. 
Their large size and broad coverage of both vegetation and climate 
types allow experimental results to be extrapolated, with care, to much 
larger areas of the Earth, as might be necessary for monitoring of 
greenhouse gases and carbon offsets associated with verification of 
carbon trading and international treaties. Their value as test beds for 
sensing and prediction of greenhouse gas emissions and terrestrial 
impacts cannot be over-stated: their lands are protected, they have 
long-term data sets that capture climate impacts, and they are flexible 
to experimental manipulations similar to those conducted by DOE's 
Program for Ecosystem Research and Terrestrial Carbon Process Program 
(e.g., altering climate change factors such as precipitation, 
temperature, atmospheric CO<INF>2</INF> to determine the ecosystem 
impacts, or conducting mitigation experiments such as sustainable 
forest thinning). It is rare that such protected, yet scientifically 
important land areas, are available for testing monitoring tools for 
use in denied or hostile territories, or for testing new theories for 
climate modeling.
    The National Environmental Research Parks have long-term records 
that are unprecedented in length. These include stream hydrology, soil 
carbon, and vegetation dynamics records at Oak Ridge; avian virus, 
isotopic CO<INF>2</INF> exchange, and vegetation water stress and 
mortality at Los Alamos; grassland rehabilitation studies at Fermi; and 
numerous other long-term data streams at the four other parks. Notably, 
the Parks have unique access to skilled scientists with state-of-the-
art instrumentation and analysis tools, providing a technical advantage 
in gathering data and knowledge not available in most countries.
    The current threat: The terrestrial impacts of our changing climate 
are occurring across the Earth in novel, dramatic, and often 
irreversible ways. These impacts include regional-scale vegetation 
mortality, changing carbon storage and water availability, and reduced 
lumber and food production. Human impacts are already widespread and 
are expected to become both more common and severe globally. Our 
understanding of these threats has increased dramatically in the last 
decade due in part to the leadership of DOE's Office of Science-Office 
of Biological and Environmental Research scientific programs.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    A drastic example of climate impacts on terrestrial ecosystems can 
be seen by looking no further than outside my office window at the 
semi-arid woodland that covers much of the Los Alamos Environmental 
Research Park. In 2002, pinon pine trees died throughout the 
southwestern United States following a 12-month drought that was 
considered unusually warm as is consistent with global warming 
(Breshears et al., 2005). At the Los Alamos Park, the mortality rate 
exceeded 97 percent (Figure 2). The rash of dead trees drew significant 
attention within the region, as many of my neighbors lamented the loss 
of their favorite trees from their yards, not to mention the economic 
impacts on commodity production and tourism.
    From a scientific perspective, we were fortunate that scientists at 
the Los Alamos Environmental Research Park had sustained long term 
water stress and hydrology observations for over a decade proceeding 
the mortality event, allowing us the first-ever documentation of how 
trees die (Breshears et al., 2009). In short, trees were unable to 
photosynthesize for 12 continuous months because of severe water 
stress, forcing them to starve for carbon. Subsequently they had no 
resources left for defense against beetle attack. This is similar to 
starving humans who are often unable to fight off a simple cold virus. 
This research is critical because during the period of carbon 
starvation the forests are not absorbing carbon and thus are no longer 
functioning as a carbon sink. In addition, once trees die they begin 
releasing carbon back into the atmosphere through the decomposition 
process.
    From the long-term data at Los Alamos we developed the first 
testable theory regarding the exact causes of tree mortality (McDowell 
et al., 2008b). We are now testing this theory via a large scale 
drought manipulation experiment supported by DOE's Program for 
Ecosystem Research and are examining the consequence of mortality on 
carbon storage and water yield via DOE's Experimental Program to 
Stimulate Experimental Research (EPSCoR) as part of the AmeriFlux 
program. We are also testing the new theory for integration into the 
Community Climate System Model (a joint project funded by DOE and the 
National Science Foundation, www.ccsm.ucar.edu) for global climate 
prediction.
    But the southwestern pinon pine mortality was only the proverbial 
canary in the coal mine: catastrophic mortality events are now being 
observed throughout western North America (Allen et al., in review). 
These regional die-off's are now altering some of America's most 
cherished places, such as the Colorado Rockies and Yellowstone National 
Park, where entire mountainsides of pine trees are turning brown. 
Perhaps even more disturbing is the subtle but insidious doubling of 
mortality from one to two percent in apparently healthy forests over 
the last three decades (van Mentegm et al., 2009). Though less graphic 
than the catastrophic die-off's, this doubling of mortality in 
apparently healthy forests may be a precursor of worse things to come. 
Notably, increased mortality has also been revealed in wetter areas 
that are expected to be more resilient, such as at the Oak Ridge 
Research Park in the Appalachian Mountains (Kardol et al., in review). 
Again, the increase in forest mortality rates reduces the amount of 
atmospheric carbon that can be absorbed and stored by forests over the 
long-term.
    The challenge: The science challenges are clear: we must understand 
the changing climate and its impacts on terrestrial systems well enough 
that we can predict over the next decades what will happen to 
terrestrial resources such as crop yields, carbon storage, 
productivity, and water quality. Importantly, this understanding and 
prediction must be done at regional scales relevant to policy-makers. 
Furthermore, the United States needs a regionally distributed early-
warning network of climate impacts. For example, we can presently 
anticipate weather with near-realtime predictions based on a network of 
weather measurements that feed data into predictive models. Modelers 
are also making great advances in predicting weather and climate in the 
upcoming weeks to seasons, which may allow society to plan for events 
such as heat waves and droughts. We have no such early warning system 
for climate impacts on ecosystems. The scientists and their associated 
technology, models, and research sites at both the National 
Environmental Research Parks and elsewhere, are already available and 
amenable to development of just this early-warning network for 
terrestrial impacts.
    The Environmental Research Parks are an ideal, yet underutilized 
network of sites located throughout America that can be used as part of 
an early warning network, for testing remote techniques for detecting 
impacts and greenhouse gas emissions, and for conducting fundamental 
research in line with the original Research Park charter. 
Unfortunately, they have no formalized funding source, and thus they 
have only really been used when individual investigators have been able 
to obtain grants to support work on the Park lands. Thus, there are 
only rare data sets that have been maintained over sufficiently long 
time periods to capture extreme climate events and to differentiate 
short-term variability from long-term trends. Likewise, no integration 
across parks has occurred, preventing us from determining how 
ecosystems and their inhabitants respond to climate variation across 
regions.
    Recommendations: It is essential that we have a network of sites 
for early detection of climate impacts on ecosystems and for testing 
tools that monitor greenhouse gas emissions and terrestrial impacts. If 
the National Environmental Research Parks were employed with this 
charge, they could become a leading entity in the new generation of 
science in which we not only learn more fundamental science, but also 
develop and apply tools for verifying international treaties, for 
predicting consequences on our own soil, and for developing mitigation 
options. Such a network should be used to build upon existing efforts 
such as NSF-LTER sites, the AmeriFlux network, which monitors 
CO<INF>2</INF>, water and energy exchanges, NOAA's Cooperative Air 
Sampling Network, USDA's Forest Inventory Analyses and Natural 
Resources Inventory, which monitor biomass and soil carbon throughout 
the United States, as well as with existing and future remote sensing 
tools supported by NASA and the Jet Propulsion Lab. Likewise, 
capitalizing on existing data management networks, for example, with 
the North American Carbon Program, is essential.
    Support of the Research Parks should be a long-term priority. 
Decadal-length monitoring is essential for capturing extreme climate 
events as well as chronic warming. Like fine wines, the few long-term 
data sets that exist globally have all increased in value with each 
passing year as they reveal climate change impacts that were not 
detectable in only three years, the normal proposal funding cycle.
    The long-term efforts must include experimental manipulations, such 
as those supported by DOE-Office of Science. Altering CO<INF>2</INF>, 
rainfall, and temperature over entire ecosystems allows us to see 
ecosystem response to climate changes that will occur in the future. 
The manipulations are essential for predicting the response of 
ecosystems to changes we expect to occur in the next 20 to 50 years. 
Like long-term observations, these experiments must be decadal in 
length. For example, in my Office of Science funded study, we are 
altering rainfall to simulate climate change and determine why trees 
die and what happens to the ecosystem afterwards, and have found that 
trees are just starting to die after three years, which is the end of a 
typical funding cycle. Three years is not sufficient for most ecosystem 
scale observational or experimental studies of climate change impacts.
    Ideally, this research must be integrated spatially and across 
disciplines. The challenge is complex and exists at multiple scales. 
Rising air temperature impacts plants at the cellular level, yet it 
manifests at the tree, landscape, and global scales that affect humans. 
Observations and experimentation must be integrated with models, such 
as the Community Climate System Model, if we are to advance our 
understanding and our forecast accuracy. Only then will our effort be 
relevant to the American public.
    We are at a critical turning point. We know that climate is 
changing, and we know that terrestrial ecosystems are being impacted. 
We now have the theory, tools and models to make rapid advances in our 
ability to forecast impacts that are relevant to human populations. We 
simply need to integrate these tools and apply them within and beyond 
the Research Parks.
    Thank you for this opportunity to appear before the Subcommittee.

Relevant websites

         McDowell Lab at Los Alamos National Laboratory:
         http://climateresearch.lanl.gov/

         DOE EPSCoR Program:
         http://www.er.doe.gov/bes/EPSCoR/index.html

         DOE Program for Ecosystem Research:
         http://per.ornl.gov/

         DOE Terrestrial Carbon Process Program:
         http://www.er.doe.gov/OBER/CCRD/tcp.html

         Community Climate System Model:
         http://www.ccsm.ucar.edu/

References

Allen, CD, A Macalady, H Chenchouni, D Bachelet, N McDowell, M 
        Vennetier, P Gonzales, T Hogg, A Rigling, D Breshears, R 
        Fensham, Z Zhang, T Kitzberger, J Lim, J Castro, G Allard, S 
        Running, A Semerci, N Cobb. Climate-induced forest mortality: a 
        global overview of emerging risks. Forest Ecology and 
        Management, in review.

Bickford CP, McDowell NG, Eberhardt EB, Hanson DT. High resolution 
        field measurements of diurnal carbon isotope discrimination and 
        internal conductance in a semi-arid species, Juniperus 
        monosperma. Plant, Cell and Environment, doi: 10.1111/j.1365-
        3040.2009.01959.x

Breshears DD, Cobb NS, Rich PM, Price KP, Allen CD, Balice RG, Romme 
        WH, Kastens JH, Floyd ML, Belnap J, Anderson JJ, Myers OB, 
        Meyer CW. 2005. Regional vegetation die-off in response to 
        global-change-type drought. Proc Natl Acad Sci USA 102:15144-
        15148.

Breshears DD, OB Myers, CW Meyer, FJ Barnes, CB Zou, CD Allen, NG 
        McDowell, WT Pockman. 2009. Tree die-off in response to global-
        change-type drought: mortality insights from a decade of plant 
        water potential measurements. Frontiers in Ecology and 
        Environment, 7, doi:10.1890/080016.

Dale VH, Parr PD. 1998. Preserving DOE's Research Parks. Issues in 
        Science and Technology, Vol. XIV, 73-77.

Engel S, HM Lease, NG McDowell, BO Wolf. Resource use by a grasshopper 
        community quantified using tunable diode laser spectroscopy to 
        measure breath d<SUP>13</SUP>C. Rapid Communications in Mass 
        Spectrometry, in press.

Hanson, PJ, A Classen, L Kueppers, Y Luo, N McDowell, J Morris, P 
        Thornton, J Dukes, M Goulden, J Melillo and Workshop 
        Participants. The Need for Next Generation Ecosystem 
        Experiments to Understand Climate Change Impacts on Ecosystems 
        and Feedbacks to the Physical Climate. Frontiers in Ecology and 
        Environment, in review.

Johnson DW, Todd Jr DE, Trettin CF, Mulholland PJ. 2008. Decadal 
        changes in potassium, calcium, and magnesium in a deciduous 
        forest soil. Soil Science Society of America Journal, 72: 1795-
        1805.

Kardol P, Donald TE, Hanson PJ, Mulholland PJ. Long-term successional 
        forest dynamics: species and community responses to climatic 
        variability. In review.

McDowell, NG, D Baldocchi, MM Barbour, C Bickford, M Cuntz, DT Hanson, 
        A Knohl, HH Powers, T Rahn, J Randerson, WJ Riley, C Still, K 
        Tu, A Walcroft. 2008a. Measuring and modeling the stable 
        isotope composition of biosphere-atmosphere CO<INF>2</INF> 
        exchange: where are we and where are we going? EOS, Trans, AGU 
        89: 94-95.

McDowell, NG, W Pockman, C Allen, D Breshears, N Cobb, T Kolb, J Plaut, 
        J Sperry, A West, D Williams, E Yepez. 2008b. Tansley Review: 
        Mechanisms of plant survival and mortality during drought: why 
        do some plants survive while others succumb? New Phytologist, 
        178: 719-739.

van Mantgem PJ, NL Stephenson, JC Byrne, LD Daniels, JF Franklin, PZ 
        Fule, ME Harmon, AJ Larson, JM Smith, AH Taylor, TT Veblen. 
        2009. Widespread increase of tree mortality rates in the 
        western United States. Science 323: 521-524.

                    Biography for Nathan G. McDowell
    McDowell is a staff scientist within the Earth and Environmental 
Sciences Division at Los Alamos National Laboratory (LANL), where he 
serves as the Director of LANL's Tunable Diode Laser Facility and 
Director of LANL's National Environmental Research Park. McDowell 
received his B.Sc. in Biology from the University of Michigan in 1994, 
M.Sc. in Ecosystem Processes from the University of Idaho's College of 
Natural Resources in 1998, and Ph.D. in Tree Physiology from Oregon 
State University's College of Forestry in 2002. His interests are 
focused on understanding the fundamental physiological regulation of 
plant carbon and water balance in response to the environment. To 
achieve this goal McDowell employs many techniques and develops 
collaborations across many disciplines, including empirical 
observations, experimentation, and modeling. His team's current 
research is focused on two main areas 1) the mechanisms and 
consequences of vegetation mortality in response to drought, and 2) the 
fundamental regulation of the terrestrial carbon and water cycles in 
response to climate and management.

    Chair Baird. Thank you, Dr. McDowell.
    Dr. Gibbons.

 STATEMENT OF DR. J. WHITFIELD GIBBONS, PROFESSOR EMERITUS OF 
    ECOLOGY; HEAD OF THE SAVANNAH RIVER ECOLOGY LABORATORY 
  ENVIRONMENTAL EDUCATION AND OUTREACH PROGRAM, UNIVERSITY OF 
                            GEORGIA

    Dr. Gibbons. Chairman Baird, Ranking Member Inglis and 
Members of the Subcommittee, good morning and thank you for 
inviting me to address the Subcommittee and provide a 
perspective on the Department of Energy's National 
Environmental Research Parks. I am Whit Gibbons, Professor 
Emeritus of Ecology from the University of Georgia and Head of 
the Environmental Education and Outreach Program at the 
Savannah River Ecology Laboratory, which we call SREL, on DOE'S 
Savannah River site in South Carolina. I have provided more 
written material to you than I will have time to read so I will 
summarize the high points by using SREL and the Savannah River 
site as examples of how the designations of these parks across 
the Nation will be in the public interest. Please remember that 
any of the other DOE sites can provide excellent examples as 
well.
    SREL has been operated by the University of Georgia since 
1951 with a mission to provide an independent evaluation of the 
environmental effects of Savannah River site operations through 
a program of ecological research, education and public 
outreach. SREL has been recognized internationally by 
Encyclopedia Britannica as the outstanding laboratory of the 
year and awarded a Guinness World Record certificate for the 
longest running amphibian field research program in the world. 
Both of these were made possible by DOE operating the site as a 
National Environmental Research Park. SREL research 
contributions include more than 3,000 publications in the peer-
reviewed scientific literature and more than 25 books on 
ecology and environment. Most of the research could not have 
been conducted without the protected areas that have allowed 
these long-term studies.
    As far as education, SREL has provided training for more 
than 1,000 future scientists as undergraduate research 
participants or graduate students, the latter producing more 
than 400 theses and doctoral dissertations. Students have come 
from 275 universities and colleges and from every state and 
Puerto Rico. Most came to SREL because of research 
opportunities offered by the protected land area.
    In public outreach programs, SREL reaches more than 50,000 
students, teachers, civic leaders and other members of the 
general public each year through talks, tours, exhibits, 
workshops and other presentations about the Savannah River site 
and its activities and environmental stewardship. All are 
focused on the protected land area and what it provides for 
ecological research and wildlife conservation.
    The environmental research themes possible that are 
currently undertaken on the site and that will be enhanced by 
legislative recognition of the parks are environmental 
characterization. This will be true for any of the parks on all 
of the natural habitats, which is a necessary first step in 
determining environmental and health risks, research on 
ecological risk and effects, which helps to ensure that good 
decisions are made by reducing uncertainties associated with 
complex environmental processes, and studies on remediation and 
restoration of natural habitats can be conducted on the 
Savannah River site where large land areas are contaminated 
with relatively low levels of metals, organics and 
radionuclides.
    All parts of the DOE complex can also serve as reference 
landscapes for the patchwork of commercial and private land 
areas that exist outside of their borders as well as 
representing a landscape with biological communities that can 
be used as a reference for climate change without the impact of 
typical economic development. Long-term ecological studies can 
be conducted on the parks that would be impossible to carry out 
without official protection. Protecting these areas in 
perpetuity will be in the best interest of all Americans. The 
establishment of the Savannah River site and other DOE sites as 
National Environmental Research Parks will assure a legacy that 
DOE can be proud of.
    Mr. Chairman, thank you and Members of the Subcommittee for 
the opportunity to provide testimony in support of the National 
Research Park concept and to present the SREL model for 
ecological research and for environmental education and public 
outreach. The contributions to field research relating to 
energy technologies that can be accomplished at these DOE sites 
are unsurpassed as outdoor laboratories and their boundless 
opportunities. The opportunities to achieve public trust 
through transparent presentation of ecological research 
findings and advancements in environmental stewardship through 
education and public outreach programs are limitless, and 
remember to remind your colleagues in the House and Senate that 
National Environmental Research Parks are different from 
national parks or wildlife refuges or national forests because 
they not only allow, but welcome environmental disturbances 
resulting from energy technologies where they can be studied 
and reported on in the national interest. I urge you to 
continue the process of formalizing the DOE lands as National 
Environmental Research Parks.
    This concludes my testimony, and I thank you very much. I 
would be pleased to answer any questions.
    [The prepared statement of Dr. Gibbons follows:]
               Prepared Statement of J. Whitfield Gibbons
    Chairman Baird, Ranking Member Inglis, and Members of the 
Committee: good morning and thank you for inviting me to address the 
Committee and provide the University of Georgia's Savannah River 
Ecology Laboratory perspective on the Department of Energy's 
designation of National Environmental Research Parks.
    I am Whit Gibbons, Professor Emeritus of Ecology from the 
University of Georgia and Head of the Environmental Education and 
Outreach Program of the Savannah River Ecology Laboratory on DOE's 
Savannah River Site in South Carolina.
    Because of my own background and experience I will use the Savannah 
River Ecology Laboratory (SREL) as an example of how the designation of 
National Environment Research Parks across the Nation will be in the 
public interest. Please remember that SREL and the SRS are only 
examples and that any of the DOE sites can serve as excellent examples 
as well.
    SREL was founded in 1951 by the late Dr. Eugene P. Odum of the 
University of Georgia and throughout its history SREL has been operated 
by the University of Georgia with collaboration from other academic 
units regionally and nationally. The laboratory is located on the 
Department of Energy's (DOE) Savannah River Site near Aiken, SC; it has 
been recognized internationally by Encyclopedia Britannica as the 
Outstanding Laboratory of the Year and also was recognized by a 
Guinness World Record Certificate for the longest running amphibian 
field research program in the world.
    SREL's mission, as defined in its Cooperative Agreement with the 
Department of Energy, is to provide an independent evaluation of the 
ecological effects of Savannah River Site operations through a program 
of ecological research, education, and public outreach.
    The program involves basic and applied environmental research, with 
emphasis upon expanding the understanding of ecological processes and 
principles, and upon evaluating the impacts of industrial and land use 
activities on the environment. Dissemination of this knowledge to the 
scientific community, land managers, government officials, and the 
general public is a key goal of SREL.
    During its 58-year history, SREL has had a significant impact on 
the Savannah River Site, the scientific community, and the general 
public by actively contributing to environmental remediation, 
restoration efforts, and environmental stewardship on the SRS and 
elsewhere, all within the spirit of a what a system of National 
Environment Research Parks proposes to be in regard to research, 
education, and outreach.

1. RESEARCH--The environmental research themes that are currently 
undertaken and that will be enhanced by the National Environmental 
Research Park designation are:

        (1)  Environmental characterization,

        (2)  Ecological risks and effects, and

        (3)  Remediation and restoration of natural habitats.

    SREL contributions to research include the publication of more than 
3,000 publications in the peer-reviewed scientific literature and more 
than 25 books on ecology and the environment.

Environmental Characterization

    Characterization is a necessary first step in determining 
environmental and health risks and in devising appropriate remediation 
and restoration strategies. Environmental information is also needed to 
make informed decisions about long-term stewardship and land 
management, and it is also a critical component of NEPA reports, 
Records of Decision (ROD), and other regulatory documents. 
Environmental characterization is more than simply measuring 
contaminant concentrations in biota or other media, or reporting the 
presence of organisms at various locations. It includes developing an 
understanding of the processes that control distributions of 
contaminants, chemical forms, and their bioavailability. 
Characterization is also necessary to construct models of how natural 
and engineered systems function, both in the presence and absence of 
environmental contamination.

Ecological Risks and Effects

    Estimated risks and effects determine the need for remediation and 
restoration efforts, while perceived risks and effects determine the 
public's acceptance and support of DOE policies and actions. Estimating 
ecological risks and effects on the basis of sound science helps to 
ensure that good decisions are made by reducing uncertainties 
associated with complex environmental processes. A 1999 report from the 
National Academy of Sciences stated that ``Ecological risks are better 
characterized at the Savannah River Site than at any other DOE 
installation, due in part to the designation of the site as a National 
Environmental Research Park and the presence of the Savannah River 
Ecology Laboratory.''

Remediation and Restoration

    The SRS National Environmental Research Park coupled with the 
knowledge and expertise based at SREL are ideally suited to address the 
remediation and restoration of large land areas contaminated with 
relatively low levels of metals, organics, and radionuclides. SREL 
conducts multi-disciplinary research designed to assist in the 
development, evaluation and stakeholder acceptance of remediation and 
restoration efforts that protect human and ecosystem health. 
Fundamental to the success of various bioremediation, natural 
attenuation, and in situ remediation applications is an understanding 
of the underlying scientific principles on which they are based.
    The SRS and other National Environmental Research Parks in the DOE 
complex can also serve as reference landscapes for the patchwork 
landscapes that exist outside of their borders as well as representing 
a landscape with biological communities that can serve as a reference 
for climate change, without the impact of ``normal'' economic 
development. In addition, long-term ecological studies can be conducted 
on National Environmental Research Parks that would be impossible to 
carry out without the protected nature of the DOE sites.

2. EDUCATION--For more than a half century, SREL has provided training 
for future scientists and engineers, having had more than 600 
undergraduate research participants, including representatives from 275 
universities and colleges in every state and Puerto Rico. More than 200 
of these students have continued careers in science. Graduate students 
have produced more than 400 Master's theses and doctoral dissertations 
based on research conducted.

3. OUTREACH--In environmental outreach programs, SREL reaches as many 
as 50,000 members of the general public each year through talks, tours, 
exhibits, workshops, and other presentations about SRS activities and 
environmental stewardship.
    Reasons for SREL's success in accomplishing these goals include the 
facts that the SRS has the largest tract of fenced-off, environmentally 
protected land east of the Mississippi River and therefore minimally 
affected by impacts from agricultural, urban, or industrial activities. 
Paradoxically, because five formerly active nuclear production reactors 
were guarded and protected for defense security purposes for more than 
a half century, we now have what is arguably the most biologically 
diverse suite of regional habitats in the Atlantic and Gulf Coastal 
Plain. For these reasons, the SRS was proposed as the first National 
Environmental Research Park. The other DOE complexes have comparable 
uniqueness for environmental stewardship and ecological research.
    Testaments to the biodiversity and abundance of wildlife on the SRS 
are:

        1.  Upper Three Runs Creek, which travels more than 20 miles 
        across the site to the Savannah River, has the highest 
        documented diversity of aquatic invertebrates, including clams, 
        crawfish, freshwater shrimp, and countless fascinating insects, 
        than any other stream in North America.

        2.  More ruddy ducks winter on SRS reservoirs each year than in 
        the rest of South Carolina put together.

        3.  Much of the 10,000-acre river swamp and floodplain have 
        been virtually untouched by on-site human activities for a 
        minimum of 50 years. Recently, one of the cypress trees was 
        aged using tree rings and found to be more than 600 years old.

        4.  More species of reptiles and amphibians, over 100 species, 
        have been documented from the SRS than have been found on any 
        other public land area in the United States, including the 
        Everglades or Great Smoky Mountains National Park, and more 
        than are found in most of the 50 states. Approximately 1,000 
        species of plants exist on the SRS.

        5.  Another environmental record is that the SRS has more 
        intact and permanently protected Carolina bay wetlands, the 
        natural wetlands of this region, than the remainder of the 
        State of South Carolina.

    These are but a few of the impressive features of this protected 
land area that speak to the ecological richness and environmental 
health of the region and to its perpetuation and stability. The 
establishment of the SRS and other DOE sites as National Environmental 
Research Parks will assure a legacy that DOE can be proud of.
    Mr. Chairman, I thank you and Members of the Committee for the 
opportunity to provide testimony in support of the National 
Environmental Research Park concept. The contributions to field 
research relating to energy technologies that can be accomplished at 
these DOE sites, which are unsurpassed as outdoor laboratories, are 
boundless. The opportunities to achieve public trust through 
transparent presentation of ecological research findings and 
advancements in ecological stewardship through environmental education 
and outreach programs are limitless. We have prepared a model at SREL 
both for ecological research and for environmental education and 
outreach. We hope to continue our efforts at SREL under the umbrella of 
the National Environmental Research Park program at the Savannah River 
Site and hope that the six National Environmental Research Parks 
located in other major ecological and climatic regions of the United 
States will be afforded the same opportunities. This concludes my 
testimony. I will be pleased to answer any questions.

                   Biography for J. Whitfield Gibbons
    Whit Gibbons is Professor Emeritus of Ecology, University of 
Georgia, and Head of the Environmental Outreach and Education program 
at the Savannah River Ecology Laboratory (SREL). He received degrees in 
biology from the University of Alabama (B.S., 1961; M.S., 1963) and in 
zoology from Michigan State University (Ph.D., 1967).
    Whit is author or editor of twelve books on herpetology and 
ecology, including:

         Lizards and Crocodilians of the Southeast. 2009. (With Judy 
        Greene and Tony Mills.) UGA Press.

         Frogs and Toads of the Southeast. 2008. (With Mike Dorcas.) 
        UGA Press.

         Turtles of the Southeast. 2008. (With K. Buhlmann and T. 
        Tuberville.) UGA Press.

         Snakes of the Southeast. 2005. (With Mike Dorcas.) UGA Press. 
        Winner of National Outdoor Book Award

         North American Watersnakes: A Natural History. 2004. (With 
        Mike Dorcas.) University of Oklahoma Press.

         Ecoviews: Snakes, Snails, and Environmental Tales. 1998. (With 
        Anne Gibbons.) University of Alabama Press. Choice Outstanding 
        Academic Book award.

         Life History and Ecology of the Slider Turtle. 1990. 
        Smithsonian Institution Press.

         Their Blood Runs Cold: Adventures with Reptiles and 
        Amphibians. 1983. U. of Alabama Press.

    Whit has published more than 250 articles in scientific journals, 
has had commentaries on National Public Radio (Living on Earth, Science 
Friday, and others), and has had more than 1,000 popular articles on 
ecology published in magazines and newspapers, including a weekly 
environmental column distributed by the New York Times Regional 
Newspaper Group. His encyclopedia articles have appeared in World Book, 
Compton's, and for the past 25 years have included the annual summary 
of Zoology for the Encyclopaedia Britannica Year Book. He wrote the 
latest edition of Reptile and Amphibian Study, the merit badge booklet 
for the Boy Scouts of America.
    Whit Gibbons received the Henry Fitch Distinguished Herpetologist 
Award at the National Joint Meeting of Ichthyologists and 
Herpetologists for long-term excellence in the study of amphibian and 
reptile biology. He was awarded the IUCN Behler Turtle Conservation 
Award in recognition of long-term turtle research and conservation 
nationally and internationally. Other awards include the Southeastern 
Outdoor Press Association's First Place Award for the Best Radio 
Program, the South Carolina Governor's Award for Environmental 
Education, the Meritorious Teaching Award presented by the Association 
of Southeastern Biologists (ASB), and the ASB Senior Research Award.
    Whit is a frequent speaker at meetings, both civic and scientific, 
and gives talks each year to college and pre-college school groups. 
Many of the talks use live animals, particularly reptiles and 
amphibians, in discussions of ecological research and environmental 
awareness.

                               Discussion

    Chair Baird. Dr. Gibbons, thank you, and thanks to all the 
witnesses. We have been joined by Dr. Ehlers and also by Mr. 
Tonko. I thank them for being here, and I will recognize Mr. 
Lujan first for five minutes as the author of H.R. 2729. Mr. 
Lujan is recognized.
    Mr. Lujan. Mr. Chairman, thank you very much for your 
indulgence there and Ranking Member Inglis as well.
    I have been extremely impressed with the research that has 
been taking place with NERPs around the country despite not 
having the full support that they potentially could have in the 
past. The research compiled has been remarkable. From your 
standpoint, what type of research could be enhanced, could 
grow, could be developed with additional support or funding? 
And I would pose that question to the entire panel. Dr. Hanson.
    Dr. Hanson. Recent community studies have highlighted all 
terrestrial ecosystems as being important for fuel, fiber, 
recreational areas, for everyone's backyard, so the key six or 
seven ecosystems represented by the National Environmental 
Research Parks represent a real opportunity to understand how 
vulnerable those systems might be to climate change as an issue 
or other environmental issues.
    Mr. Lujan. Dr. McDowell.
    Dr. McDowell. Let me make sure I understand the question. 
You are curious what the future research applications could be 
if there was support for them?
    Mr. Lujan. Sure.
    Dr. McDowell. Yeah, I think what Dr. Hanson said was 
absolutely true, and in addition what we could really 
capitalize on, which is already a huge interest to American 
scientists from any agency or academic institution, is to have 
a network of sites such as those done by AmeriFlux, which you 
guys may have heard of earlier this year, that are monitoring 
climate impacts continuously over long time periods but that 
has done so in a coordinated way, and that is one of the great 
values of this network is, it can be coordinated. We can 
actually work together to make sure that we are documenting 
those changes. Likewise, the type of experiments that Dr. 
Hanson emphasized in his presentation could be done in a 
coordinated fashion throughout the park to allow us to actually 
provide the necessary understanding for future models of 
climate impacts as well as climate change models such as those 
that Dr. Bader referenced. And I am sure, I just want to also 
say that there are a lot of other things other scientists with 
other interests might also, you know, add to that list.
    Mr. Lujan. Dr. Gibbons.
    Dr. Gibbons. Yes. In the area of biodiversity, I think 
habitat fragmentation is one of the major concerns of impacts 
on wildlife across the country, across the world, and the 
advantage of the National Environmental Research Parks is, 
these are contained units, very little disruption within them. 
I mean, the Savannah River site, 300 square miles, 80 percent 
of it is forestlands and wetlands and so we can determine there 
what is--what should the natural world be like compared to what 
it is in the surrounding areas and the rest of the country. It 
is an excellent opportunity to do that kind of research.
    Mr. Lujan. And along those lines, Dr. Gibbons and Dr. 
McDowell, you mentioned in your opening remarks the importance 
of public outreach and how there can be coordination within the 
community. I would, you know, point out the youthfulness of Dr. 
McDowell but the rather extensive knowledge that he also brings 
in the research that has been done. In both working with public 
schools or surrounding universities in the community where our 
laboratories or the parks reside, what can be done to be able 
to continue to work with them and with the surrounding 
community as well as providing an opportunity to be able to 
continue to recruit young scientists, to encourage them to get 
into this field as well?
    Dr. Gibbons. Our program involves bringing what we call 
ecologists for a day and bring students out every week twice a 
week to the site from different regional schools, spend all day 
measuring the environment the way ecologists do and in fact, 
the program fills up immediately the first day after Labor Day 
because all the schools want to come to this. That is one 
thing, and I think what it does, it gives the public in an area 
more confidence that they know what is going on out on this 
site, that children are out there, that programs are developed 
so they can visit, they can see the natural areas. Of course, 
they don't get around some of the areas, but the natural 
areas--it is an opportunity to teach children. Then, the next 
step up of course, it is for college students who have 
undergraduate programs and the other sites do as well where 
research opportunities for undergraduates to come in for 
internships and then of course the programs with graduate 
students that are available on most of the sites too.
    Mr. Lujan. Thank you very much, Dr. Gibbons.
    And Mr. Chairman, if I may ask Dr. McDowell, what I would 
ask is if on the next round of questions I can come back and 
get Dr. McDowell to respond to that question.
    Chair Baird. Absolutely.
    Mr. Lujan. Thank you, sir.
    Chair Baird. We have been joined by Mr. Davis. Thank you, 
Mr. Davis, for your presence today. With that, I recognize Mr. 
Inglis for five minutes.

                            Land Remediation

    Mr. Inglis. Thank you, Mr. Chairman.
    Dr. Gibbons, I am excited about the work that is going on 
at Savannah River and really it is quite a site. Three hundred 
square miles is a lot of area to do work in, and it is also a 
place where I guess we are taking the lemons that we have been 
given and turning them into lemonade. There is some trouble 
there in 300 square miles, and I wonder if you could elaborate 
on that. There is research on how to remediate, right, that is 
important work that is going on there that may have great 
contributions to really the whole world?
    Dr. Gibbons. I think remediation and restoration of areas 
like that are particularly important. Obviously the community 
wants to be assured that it is a safe place to live around, and 
there is admittedly low-level radionuclides, there are metal 
contaminations, other contaminants on the Savannah River site. 
I think the important part is, most of them are localized and 
people on the site know where they are. The next step is, how 
do you contain them in terms of groundwater? And certainly 
there are people--some of the scientists at the site are 
involved in addressing that question. I think an important 
feature of a National Environmental Research Park like Savannah 
River is when you do have contaminated areas, you have next 
door to them on the same site uncontaminated areas that you can 
use as reference sites or controls to compare what should the 
habitat be like. This is what it is perhaps in a sense of 
contamination. This is what it should be like. And so that is 
one of the real advantages that research can be done to make 
those comparisons. I think there is a suite of scientists of 
different areas, Savannah River Ecology Lab, Savannah River 
National Laboratory, Forest Service, there are people in 
various categories that are examining different aspects of the 
habitats, of the problems, and I think one of the things we 
think is important is the public education. We want to let the 
public know what are we finding out, what is really happening 
out there, and that seems to be a very--that is the educational 
component I think a lot of people are very interested in.
    Mr. Inglis. For the benefit of my colleagues, I think we 
should mention that, I think it is, what, 35 million gallons of 
high-level liquid radioactive waste that we have had at the 
Savannah River site that we have got to deal with. We are 
dealing with it, vitrifying it in the plant there, right?
    Dr. Gibbons. That is absolutely right.
    Mr. Inglis. So 35 million gallons is going down every year 
but it is a serious matter.
    Dr. Gibbons. It is a major problem that is being dealt 
with, I think by people there as well as it can be.
    Mr. Inglis. Right, and it is also--you mentioned in your 
testimony that the Savannah River Ecology Lab may help us with 
the development of energy technologies. I wonder if you could 
elaborate on that?
    Dr. Gibbons. I think we are all interested in energy 
technologies, or most of us, and developing energy 
technologies, but I think many people these days also want to 
know that the environment is safe while we are doing it. I 
think what Savannah River Ecology Laboratory scientists do is, 
we look at the environment, look at impacts on the environment 
by different activities and can come up with recommendations 
for how can it be done better or is it being done properly. Can 
we do a better job environmentally as well as technologically?
    Mr. Inglis. Thank you.
    Thank you, Mr. Chairman.

                   Funding Sources and Park Activity

    Chair Baird. I will recognize myself for five minutes.
    Talk to us a little bit about how it is determined what 
research gets done and where the funding is. You have each got 
jurisdiction over a different park or are involved with this. 
Who decides what studies are done and where does the funding 
come from? Is it at NSF or is it out of the DOE budget, a 
combination? How does it work out? Dr. Hanson?
    Dr. Hanson. Most of our research is funded through the 
federal good graces, of course. The Department of Energy 
provides the vast majority of research funds on the National 
Environmental Research Parks but NSF, USDA and EPA in times 
past, or for specific projects, have also provided funds. The 
National Science Foundation through their National Ecology 
Observation Network is targeting a wildland site on the Oak 
Ridge Reservation for long-term monitoring that would benefit 
from the legislation that is on the table. Specific projects 
have been funded and developed through initiatives sponsored by 
the agencies and the Program for Ecosystem Research, the 
Terrestrial Carbon Processes program, both within the Office of 
Science, and they have been very good at identifying what kind 
of projects scientists might deploy in the protected and 
available lands of the research parks.
    Chair Baird. Thank you.
    Dr. McDowell.
    Dr. McDowell. I would just like to add to Dr. Hanson's 
comment, which I fully agree with and it is very similar for 
Los Alamos what he said. I would just like to add that in terms 
of who decides what is actually done, that is both a strength 
and a weakness of the current system because the creativity of 
the principal investigator such as Paul or myself is what 
drives what decides gets done to a large degree. That is great, 
because we are creative, but that is bad because there is no 
formalized integration between us that we would like to have, 
so it is like having a lot of smart people not necessarily 
working together in a scenario.
    Chair Baird. That actually raises a related line that I 
wanted to ask. Dr. Bader, you have talked about the need to 
improve climate models, and one of my questions would be, do 
you see a role for these parks, and how does your modeling work 
relate to the kind of research that might be done at these 
parks?
    Dr. Bader. Well, the modeling is going through a 
transformation right now. We documented that there is climate 
change and now we have to understand what the impacts of that 
climate change are, so the questions for the models became a 
lot harder, and one of the reasons I moved from Livermore to 
Oak Ridge is because we are trying to do the other scenario. We 
are trying to understand what is going on at these scales and 
then bring them up to the models, so they perform two roles. 
They are laboratories for us to understand at the process level 
what needs to be included into the models, and at the other end 
they, as both my colleagues to the left and right have pointed 
out, they are validators of impacts of what the models produce 
and their results to see if they can get it right, so they 
serve both those purposes.
    Chair Baird. Thank you. You know, we marked up last week in 
this committee a National Climate Service bill and it strikes 
me that the kind of research you are doing and the kind of 
modeling you are doing is synergistic and should interact very 
closely with the National Climate Service in a very 
constructive feedback loop as they seek questions of the 
specificity that you are referring to, Dr. Bader, and as they 
have laboratories such as we have in these parks. This is a 
stupid question because I think I pre-know the answer but what 
is the funding situation for the parks as part of the DOE 
budget? Is it a--if I say is it adequate, let me guess the 
answer. But talk a little bit about funding and where it 
resides within DOE.
    Dr. McDowell. To my knowledge, there is none.
    Dr. Gibbons. I would say there is no funding now.
    Chair Baird. So how do you run the parks?
    Dr. Gibbons. Well, the parks run themselves as long as they 
stay there. I think the parks are used as places to study and 
to develop energy technologies.
    Chair Baird. One of the strange virtues of this is--they 
were created sort of incidentally as buffer zones for the labs 
and then protected by security for that purpose, and in so 
doing we inadvertently but quite happily have created a natural 
laboratory which is at virtually no cost. One could imagine if 
someone came and said we want the Congress to authorize a 300-
square-mile research park. People would be up in arms. But here 
we have done that and we are able to benefit from the results. 
It is a happy side effect and I am fortunate that people like 
Mr. Lujan and you gentlemen have recognized its merit.
    I will recognize Ms. Giffords for five minutes.
    Ms. Giffords. Thank you, Mr. Chairman. Mr. Davis, an 
appropriator, has a meeting in 10 minutes so I am going to 
yield my time to him.
    Chair Baird. Always wise to yield to appropriators.

              Environmental Degradation and Water Studies

    Mr. Davis. I will be very brief and not use the allotted 
time and will yield back my time, and Ms. Giffords, thanks very 
much, and Mr. Chairman and Ranking Member, thank you all for 
having this hearing today. I welcome Dr. Hanson. I just came 
from a meeting with several folks from Oak Ridge at the NEI 
conference here in D.C. I live in an area in the northern part 
of the plateau which you are very familiar with, and as I 
engage in dialogue with folks at the Big South Fork National 
River and Recreation area, about a 125,000-acre park, 
oftentimes I am reminded that the ecological system of the 
entire eastern United States has been totally disrupted as a 
result of the harvesting of timber, farming operations and 
others. Obviously mankind has to survive, but when I look at 
some of the photographs in places like Sterns, Kentucky, 
Huntsville, Tennessee, Jamestown over the years and see the 
huge piling of timber as they were basically cut down and then 
used for the expansion of American industry, the expansion of 
American growth, the home building, the factories and others--
but I know the research you are doing dealt a lot with 
radiation and the area around the Oak Ridge Lab, but also you 
are doing some research on the impact on our sustainable 
forests in the area. I am just making a comment rather than a 
question. I am pleased to see these seven different locations 
where we are seriously looking at the impact of mankind on our 
environment. I applaud your work and hope that we can continue 
to fund at the level that is necessary to see that at least we 
know what we do as mankind on this Earth can have an impact on 
the future for our children. Thanks for being here today and 
thanks for letting me just make a few brief comments. I yield 
back.
    Chair Baird. Thank you, Mr. Davis, for your interest in 
this.
    Ms. Giffords.
    Ms. Giffords. Thank you, Mr. Chairman. I applaud you for 
bringing these panelists together, a very interesting 
presentation. I come from southern Arizona. I notice in the map 
that unfortunately I am not in one of the NERPs. I am not sure 
how that happened because I have got the best District in the 
whole country with great environmental resources. But that 
being said, I would like to comment on being in the Colorado 
Rocky area last year where, driving for over an hour, I mean 
the horror of looking across the thousands and thousands of 
miles of acres of these beautiful pine trees that are now 
turning red and turning ashen gray and are dying, and I think 
about the fact that in Arizona we are suffering from a very 
prolonged drought. I think it is estimated that we have lost 
about a fifth of our forests due to infestation of bark beetles 
and these mega fires that are happening and what is happening 
with climate change in general. So I am curious if someone can 
talk specifically about the effects of climate and water. I 
know that there is the Los Alamos and also the southern Nevada 
NERP that exist, but I am wondering whether or not any of these 
facilities are specifically focused on the understanding of the 
hydrological cycle in the areas. And also, if someone could 
also tie in whether or not there is coordination. For example, 
at the University of Arizona, we have many eminent climate 
scientists specifically at the College of Science and whether 
or not there is that coordination and collaboration taking 
place.
    Dr. McDowell. Yeah, the Los Alamos Environmental Research 
Park originally was a hydrology study and it became from 
original funding to study radionuclide passage and they were 
worried about groundwater contamination, so that was the origin 
and that is why we--and then they happened to move into 
studying trees and that is why they just happened to document 
the water stress and the water aspects of tree mortality. I 
agree with you about Colorado. Skiing there is not quite what 
it used to be with all the dead trees, but--and that is 
happening all over the place right now. As for Arizona, you 
have--you indeed have some of the world's leading experts at 
the University of Arizona on this subject, and in fact, I 
talked about climate change-type drought. Well, that label came 
from Professor Bashirs at the University of Arizona. He 
actually used to sit in my office at Los Alamos before he came 
to Arizona. So there is a good collaboration. We don't have 
current funding to do that. You know, again, it is PI-driven-
type research but there is a lot of dialogue. I mean, Dave and 
I e-mailed together last night about that. Paul?
    Dr. Hanson. I just want to comment that the Nevada test 
site has hosted in the past precipitation studies in the arid 
system that is there along with elevated CO<INF>2</INF> studies 
complementary and specifically coordinated but also funded by 
the Department of Energy elevated CO<INF>2</INF> and 
precipitation studies on the Oak Ridge Reservation and similar 
observational work goes on at the Argonne National Lab. The 
point being that the Office of Science has funded a lot of 
these studies taking advantage of the NERP lands.
    Chair Baird. I am going to let the gentlelady continue for 
two more minutes if she likes.
    Ms. Giffords. Thank you, Mr. Chairman.

                 The Study of Renewable Energy Sources

    I noticed from the testimony that a major focus of the 
NERPs seem to be to look at the traditional sources of energy, 
specifically fossil fuels, on the environment. We spent a lot 
of time in this committee talking about renewables. I am 
dedicated to particularly solar energy because of where I come 
from in Arizona and the potential that solar has for the desert 
Southwest. I know that there is a minimal environmental impact 
even on renewables that are supposed to be, you know, 
``clean.'' So I am curious whether or not there is any research 
happening at the National Environmental Parks on understanding 
and mitigating the environmental impacts of renewables as well, 
fossil fuels.
    Dr. McDowell. To my knowledge, that is not being done. I 
don't know if the other--my colleagues----
    Dr. Hanson. No active on-the-ground research in the Oak 
Ridge Reservation, but a number of analyses have been looked at 
to determine what could be done with the National Environmental 
Research Park to provide some component of the energy needs of 
the Oak Ridge National Lab and surrounding DOE facilities. But 
I could look up more information on that if you would like.
    Ms. Giffords. No, I appreciate that.
    Mr. Chairman, as we all know, as states and the country 
move towards a national renewable energy standard, we are going 
to be seeing a rapid increase, a ramping up of renewables and 
we don't quite understand them in this committee. In the Full 
Committee, I think during the markup, I wanted to include the 
studying of photovoltaics when it comes to recycling on a bill 
that we heard earlier. Unfortunately, it didn't get included 
but we need to know more about how these renewables are 
affecting our environment as well, so thank you.
    Chair Baird. We do indeed, and Ms. Giffords, one of the 
interesting things about the die-off of trees in the Rocky 
Mountains is paradoxically, the legislation to prevent climate 
change does not currently allow most of those trees to be used 
as a renewable resource for energy production. Well, it allows 
it but there is no tax benefit. The mature, dead and diseased 
trees are excluded from the renewable energy and renewable 
fuels standards in the current bill moving before this 
Congress. I think it is a grave mistake and many of us are 
working to correct that. We have not been successful, however, 
instead we are going to let these dead trees turn into methane 
or carbon through forest fires rather than using them to heat 
homes and then replace them through reforestation, which to me 
is bad energy and environmental policy, but I thank the 
gentlelady.
    Mr. Tonko is recognized for five minutes.
    Mr. Tonko. Thank you, Mr. Chairman.

                            Climate Modeling

    Just rather quickly, some of you focused on the efforts to 
create the next generation of climate models, and just how is 
that being developed? Is it relying on that interagency climate 
change science program or are there ways that we can cultivate 
these new generations of models so as to take into account the 
dynamics that we need to?
    Dr. Bader. The interagency climate change science program, 
you know, each--I worked at the Office of Science during the 
transition from the first Bush Administration to the Clinton 
Administration and from Clinton to the second Bush 
Administration, and that whole--as you know, that whole 
interagency activity kind of reshuffles at each of those and 
right now there is nothing to replace it that I am aware of, a 
reconfiguration of the interagency activity. Climate modeling 
is one of the true interagency parts of the U.S. climate change 
research program or the climate change science program, 
whatever incarnation you have, and does require cooperation. 
There has been several studies both National Research Council 
and then an OSTP-sponsored study that I was talking about, and 
I alluded to it in my testimony, the organization of the 
agencies to actually benefit--to produce climate models that 
really make use of all the capabilities, because it is a big 
problem and there is more than enough work for everybody to do. 
None of those recommendations seem to ever get past agency 
boundaries, you know, that kind of problem, even though at the 
level the technical workers were all cooperating very closely. 
So this is one of those things that you can't fault anybody for 
but it is the result of a lot of inertia in the system where 
you really need something different and there is lots of 
capabilities, there are lots of computer power but organizing 
that and structuring it and managing it is something that I 
feel and always will feel probably could be improved.
    Mr. Tonko. When we talk about a next generation of climate 
models, is there an item or two that is most neglected or most 
ignored in that----
    Dr. Bader. Two specific things that would be in the next 
generation. One is increasing resolution. Our climate models 
don't operate at the same resolution our weather prediction 
models operate now. We would like to get our climate models to 
be at high resolution, spatial resolution, resolve things like 
hurricanes and big thunderstorms. They don't do that now. That 
is one aspect. Or boundary currents in the oceans. The second 
thing is, we want to include the interactive carbon cycle which 
our colleagues are working on here so that we can drive the 
models not just with concentration scenarios but actual 
emission scenarios, so energy mitigation options being 
considered. So those are the two big areas, the incorporation 
of biogeochemical cycles and the increase in spatial resolution 
in both the atmosphere and the ocean and on land as well.
    Mr. Tonko. And in terms of the value added to all that is 
done at your centers, how is any of the info or the assistance 
that is able to be provided to perhaps other situations across 
the country that, you know, gets extrapolated into that 
network? How does that happen? Is there a proactive quality to 
it or--I mean, there might be great things that you are doing 
that might be useful to other applications.
    Dr. Bader. Right. I mean, I think a good example of that is 
the organization I just left, PCMDI. We made the output 
available from the world's major climate modeling centers to 
thousands of people. High school kids actually would call me up 
because they couldn't figure out how to work with that amount 
of data but it is available to anybody who wants to access and 
use it, and at Oak Ridge one of the things that attracted me 
there, we are developing an information delivery system so when 
we run the models, that information can be first to the 
researchers but then to people who do impact analysis and 
things like that to make that information. The idea is for an 
end-to-end system, not just for the people doing the modeling 
but to deliver predictions and projections out to the broad 
range of users.
    Mr. Tonko. And is there some sort of improvement that we 
can do from the Congressional perspective in order to make that 
more fluid, more effective?
    Dr. Bader. I think that there are some pieces that require 
an infrastructure to do a lot of this work that don't lend 
themselves well to the traditional science research activities 
and you have to realize that there is--they talked about in 
many cases observational systems they call the Valley of Death 
between research to operations. A research paradigm doesn't 
work for operations but getting from one to the other requires 
a rethinking of the organizational paradigms on how you do 
this.
    Mr. Tonko. Doesn't that seem to be the common overriding 
theme that we get caught in the prototype or whatever, the 
beginning stages, and it doesn't get followed through?
    Dr. Bader. Right.
    Mr. Tonko. And much of the R&D.
    Dr. Bader. I think that is a problem. The Office of Science 
is a research-supporting agency, so taking that into the next 
step, there is nobody to pick it up in the ways it needs.
    Mr. Tonko. So is it a structure or is it more a function of 
resources?
    Dr. Bader. Both, but resources are needed but resources 
alone won't solve the problem.
    Mr. Tonko. Thank you.
    Chair Baird. The gentleman's time is expired, but I would 
just address that to some degree I think our climate service 
legislation, which we passed, has the potential to address 
this. As you may know, the mandate is for OSTP to convene the 
various agencies doing this relevant work and will have 
overriding entity to coordinate and perhaps address some of 
these questions, so I would invite Members of the Committee if 
they have a chance to offer suggestions regarding how that 
climate service should be structured, we would certainly 
welcome that input and I think Mr. Tonko has highlighted 
precisely one of the issues that we were trying to get at with 
that, and I think it has been affirmed by the panelists today, 
so excellent line of questioning, Mr. Tonko. Thank you.
    Mr. Lujan has asked for a second round. I am going to 
recognize myself for two quick questions, if I may. I want to 
clarify, whenever someone here in the Congress hears 
``establish a new park,'' a quite understandable reaction is, 
we don't have enough money to pay for our existing parks. I 
think one of the points we want to make is, these are existing 
parks. We are just formalizing their existence. Is that a fair 
portrayal, Mr. Lujan and to the witnesses? We are not asking 
for a bunch of new folks in Smoky Bear hats to go out. We are 
basically formalizing something that already exists.
    Mr. Lujan. Mr. Chairman, that is absolutely correct and I 
think we heard from our witnesses today not only the importance 
of the parks but the established research, the establishment of 
the parks and how we can fully utilize them going forward to 
truly understand what can be done in remediation and research 
and ecology and environmental studies that will be critical 
into the future to help us better understand what is occurring 
today.

                       Evidence of Climate Change

    Chair Baird. Thank you. I just wanted to clarify that so if 
it comes up and our colleagues ask, we have got that in the 
record.
    Secondly, I just want to, for the benefit of the record 
also, is it--and I will ask each panelist just a very simple 
yes or no. It is your professional judgment that there is 
evidence, A, of climate change, and that B, that anthropogenic 
CO<INF>2</INF> and other greenhouse gas emissions are 
contributing to that?
    Dr. Hanson. Yes.
    Dr. Bader. Absolutely.
    Dr. McDowell. Yes.
    Dr. Gibbons. Yes.
    Chair Baird. I thank that. I appreciate that. We 
periodically have Members of our committee who express some 
skepticism of that but, your combined professional--how many 
years have you been at this, Dr. Hanson?
    Dr. Hanson. Twenty-three.
    Chair Baird. Dr. Bader.
    Dr. Bader. Twenty-four.
    Chair Baird. Dr. McDowell.
    Dr. McDowell. Can I include my graduate school years to 
bump it up?
    Chair Baird. Absolutely.
    Dr. McDowell. About 10.
    Dr. Gibbons. Forty-two.
    Chair Baird. So we have got well over 100 years of 
experience. And one last part of this, have you examined the 
so-called skeptical arguments? Have you taken some time to look 
at these or are you only looking at the confirmatory evidence? 
Have you looked at some of the arguments of the skeptics? Dr. 
Hanson.
    Dr. Hanson. I think the perspective is one of how science 
works. Projections of climate change today are what they are. 
Science will proceed. New findings will develop and they may 
shift the projections of what climate change might be in the 
future, but that is the nature of climate change. A shift in 
direction of a projection is not a reason to disbelieve what we 
believe is the current condition. It is simply a recognition of 
new understanding.
    Chair Baird. Thank you.
    Dr. Bader.
    Dr. Bader. Yeah, I was the lead author for the CCSP Climate 
Modeling Report 3.1 and we actually had to take on--one of our 
committee oversight members was Dick Lindzen from 
Massachusetts\1\ and we had to go toe to toe with him for about 
three months in the process. So, yeah, I do know their 
arguments. Most of them try to develop a greater uncertainty 
than actually exists and they exploit those uncertainties to a 
large degree to make their argument and try to present it as a 
balanced argument where really, even if you exploit those 
uncertainties, the evidence on the other side is overwhelming.
---------------------------------------------------------------------------
    \1\ Massachusetts Institute of Technology
---------------------------------------------------------------------------
    Chair Baird. So when one hears various points, well, what 
about this, solar flares, what about heating of Mars, what 
about blah, blah, blah, in most cases those questions have 
actually been answered satisfactorily?
    Dr. Bader. Oh, yes. I mean, the simplest way to look at 
this is, you can't violate the first law of thermodynamics, and 
increasing greenhouse gases cause more energy to be trapped 
into the climate system, and when you trap more energy, you 
will increase its temperature. It is that simple, and a 
sophomore class in thermodynamics in college teaches everybody 
that.
    Chair Baird. Dr. McDowell or Dr. Gibbons care to comment?
    Dr. McDowell. I would say yes, I have considered the 
alternative viewpoints certainly, but the bulk of the evidence 
that exists, perhaps you could--you know, anyone can look at 
the IPCC report of 2007--concludes quite strongly that there is 
a real anthropogenic effect on the climate which these guys 
have nicely summarized.
    Chair Baird. Dr. Gibbons.
    Dr. Gibbons. I would agree with what Dr. McDowell says, and 
yes, I agree that all the evidence, all the objective evidence 
I have seen supports the anthropogenic effects.
    Chair Baird. Thank you, gentlemen.
    I recognize Mr. Inglis for five minutes.
    Mr. Inglis. Thank you, Mr. Chairman.
    Dr. McDowell, in your testimony, following up on the 
Chairman's line of questioning, you pointed out that you are 
using your laser facility to determine if specific CO<INF>2</INF> 
emissions come from biological or from fossil fuel sources. I 
wonder if you can describe how you differentiate the two. It 
may go to helping some of those folks that are skeptical in the 
matter.
    Dr. McDowell. Yes, certainly I can do that. In our 
particular case, we have a laser facility which measures the 
isotopic composition of atmospheric CO<INF>2</INF>. The 
isotopic composition of atmospheric CO<INF>2</INF> is 
controlled by a number of factors. The two biggest factors we 
can say right now globally as well as locally at my site are 
the biology of the terrestrial ecosystems, which has a major 
effect on that isotopic composition, and fossil fuels. So 
fossil fuels are simply dead plants from a long, long time ago 
and so they have an isotopic composition characteristic of 
plants. Now, natural gas in particular has a very distinct 
isotopic composition. It is very different than the ecosystems 
that exist today over most of the Earth. A natural gas-burning 
plant slightly--it is about six kilometers away from my 
facility, just slightly uphill, so at night as CO<INF>2</INF> 
drains down the landscape, we can actually see that signal. So 
in the winter when there is very high fossil fuel emissions, we 
almost only see the signature of fossil fuels. In the summer 
when the gas plant is virtually turned off, it is a very low 
level, we only see signatures that are characteristic of the 
ecosystems. This same sort of technology is actually applied at 
the global scale, particularly by NOAA, who makes these 
measurements around the world. Does that help?
    Mr. Inglis. That is very interesting, yes. You really can 
tell the difference. And the signature is--and I am not a 
scientist so you are going to have dumb this down to get it 
where I can understand it. What does the signature look like 
that is different? It reflects light differently or something 
when it is hit with the laser?
    Dr. McDowell. Yeah, that would be correct. It is an 
absorption process and so the laser has different peaks it can 
shift to, and there is absorption of the different isotopologs, 
we would call them, C1202 or C1302, these different isotopes, 
isotopologs, and it does pick them up, yeah.
    Mr. Inglis. Interesting.
    Dr. McDowell. Yeah. This technology is fairly unique at Los 
Alamos because it is very rapid. We have a very fast system 
that is very accurate. However, slower but just as accurate 
systems are run by NOAA and other organizations to allow us to 
do this around the world.
    Mr. Inglis. I would be happy to yield to the Chairman.
    Chair Baird. So what you are saying to us is that you have 
technology that allows us to tell where the carbon in the 
atmosphere came from, whether it was anthropogenic, through 
burning of fossil fuels or whether it was a natural mechanism 
of respiration from ground, for example, release from 
agriculture or some other source?
    Dr. McDowell. That is correct. I would only add that I am 
not the only one, but yeah.
    Chair Baird. But this technology exists so that----
    Dr. McDowell. Yes.
    Chair Baird.--when people say ``yes, I understand that the 
climate may be changing, I just don't think anthropogenic 
factors are the cause of that,'' you have a mechanism to say 
what percentage of the greenhouse gases, at least CO<INF>2</INF> 
in this case, are from anthropogenic and what may be from 
natural processes?
    Dr. McDowell. Our society does have that capability.
    Mr. Inglis. Dr. Bader, do you want to add something to 
that?
    Dr. Bader. Yeah, at Lawrence Livermore there is--the Center 
for Accelerator Mass Spectrometry does similar type 
measurements on samples taken from the air and from water that 
can then do the isotopic analysis on the source of carbon, so 
besides the lidar-type measurements, there is other instruments 
that can differentiate natural versus fossil fuel carbon.
    Mr. Inglis. Dr. Bader, it is interesting, when you 
mentioned the second law of thermodynamics being applicable 
here, is that just--maybe--I am trying to think, when people 
are skeptical about that and they say that maybe it is not 
caused--it is a natural effect and therefore it is just--it 
can't be controlled in any way by human intervention, in other 
words, you can't change it, it is just what it is is what it 
is. How would you respond to that?
    Dr. Bader. Well, I mean, so the theory of greenhouse gas 
warming is well over 100 years old. It was first presented at 
the London society meeting. You know, nobody debates the fact 
that if you put more carbon dioxide into the air, that you will 
trap more infrared energy. So that is where the first law of 
thermodynamics comes in. So while you are increasing your 
concentrations of carbon dioxide, you are putting in something 
that will decrease the amount of infrared radiation emitted and 
you are still getting the same amount of solar coming in. So 
for a while, you are going to have more energy coming into the 
Earth than going out, and that is where the first law of 
thermodynamics applies. When you add more energy than you emit, 
then you are going to heat up and eventually the planet will 
heat up to the point, if the concentrations stay constant, that 
it will start emitting infrared energy at the level it needs to 
be balanced and it will stop warming. That takes several 
hundred years if you stopped changing concentrations today. The 
science behind this is irrefutable. The theory behind it has 
never been assaulted. What they try to do is obfuscate the 
basic theory with a bunch of other things that don't matter.
    Mr. Inglis. And I guess the models can be poked at, right? 
I mean, you can--it is an enormously complex system, the 
Earth's climate system, so you can poke at various points on 
those models, right?
    Dr. Bader. You can, but I mean, so what we try to do, 
though, the first thing we try to do is make sure the global 
model does the right things globally, and up until a few years 
ago these models used to what we call ``drift.'' You will put a 
model together, a very complex, highly, what we call nonlinear 
so there are lots of feedbacks and it wouldn't look like the 
Earth's climate, but they have gotten good enough. That is what 
I referred to. We are able to do very good simulations of the 
20th century climate. We are only able to do those if we add 
anthropogenic greenhouse gases to the time history of 
concentrations in the atmosphere. If we don't do that, the 
planet does not warm as observed and so the models are complex, 
but in some ways the system itself works as you would expect it 
to.
    Mr. Inglis. Thank you.
    Thank you, Mr. Chairman.
    Chair Baird. Thank you, Mr. Inglis.
    Mr. Lujan.

                          More on Remediation

    Mr. Lujan. Thank you, Mr. Chairman, and again, Ranking 
Member Inglis. Again, what a great line of questioning. You 
know, I almost wanted to yield more time, Mr. Chairman, but I 
know you can allow yourself as much time as we may need.
    I want to get back to the line of questioning around 
remediation and the work and the research that is specifically 
taking place within each of our parks which can help us better 
understand how we can do better on the true need for support 
for restoration or remediation around our national laboratories 
and anywhere else in the country or, for that matter, the world 
that may need some help. Dr. Gibbons, if we could start with 
you and then maybe Dr. McDowell.
    Dr. Gibbons. Okay, the question being, what do we need to 
do in terms of remediation or why do we need remediation?
    Mr. Lujan. How do the designations of the national parks 
allow us to better understand this going forward to be able to 
make progress in this area? And then the follow-up question I 
would have is, you know, is the remediation program within DOE 
adequately supported today? That would be my follow-up but we 
can address those together.
    Dr. Gibbons. Yeah. Well, the remediation program in DOE is 
supported in a variety of different ways to different 
organizations who do different parts. I think the important 
part from the National Environmental Research Park designation 
is that you keep these lands intact so that there is no loss of 
these lands, for instance, the periphery, until the remediation 
is complete or at least underway or identified what needs to be 
done where, and do we have the reference area control sites in 
comparative areas to make sure the remediation has been 
accomplished, and the remediation covers a host of different 
aspects, as you would know. One is, do you get rid of 
radionuclides that are in a habitat or do you manage to contain 
them and live with them there? There are just many different 
components and I think the important thing is to keep the land 
intact at all these areas that have contaminants to be sure 
that--that is one reason for, I think, keeping the integrity of 
the sites. As far as the funding, I can't--it varies so much. I 
am sure you would have to talk to different people about--most 
people will tell you they never have enough funding.
    Mr. Lujan. And Dr. Gibbons, can you also touch upon how 
this can assist us with remediation or restoration of areas 
where we may have abandoned uranium mines throughout the 
country? I know that we have some in my District around the 
Navajo Nation.
    Dr. Gibbons. Well, I am not sure I can--well, I guess you 
can--by doing remediation at one site, you can certainly learn 
what to do at other sites. It can be applicable to other areas. 
I am not--my uranium background is pretty sparse, so I would 
probably have to defer to someone else about that, 
specifically.
    Mr. Lujan. Thank you, Dr. Gibbons.
    Dr. McDowell. Congressman Lujan, I can--I am in a similar 
situation as my colleague but I can say that--I will say that 
for the record the part about the funding in particular and get 
back to you. Regarding the quality of--I mean, I do--I can say 
this, that I have colleagues and friends at Los Alamos who 
study environmental remediation and who have done very, very 
high-impact work that has done a lot for Los Alamos and for 
their individual careers and for their groups at the lab, both 
in terms of bringing in additional funding for pure science as 
well as applied science, and I know that they have--universally 
when I speak with them, they say that they couldn't do it 
without the preservation of the landscape and the ability to 
make the measurements that they need to make on the landscape, 
so they are very dependent on the National Environmental 
Research Park. Regarding the funding, I would like to respond 
to you for the record later.
    Mr. Lujan. Thank you, Mr. Chairman. I yield back my time.
    Chair Baird. I thank you, Mr. Lujan. Again, I want to thank 
Mr. Lujan for recognizing the importance of this marvelous 
resource that we have. I thank the witnesses for their 
insightful testimony and for their ongoing scientific research. 
With that, I would also indicate that the record will remain 
open for two weeks for additional statements for the Members 
and for answers to any follow-up questions the Subcommittee may 
ask of the witnesses. I thank the witnesses. It has been a most 
insightful round of testimony and I hope we have the 
opportunity to share the transcript with some of our colleagues 
who I think will find some of the testimony very enlightening.
    Again, I thank the witnesses for their experience, and with 
that, the hearing stands adjourned. Thank you very much.
    [Whereupon, at 11:20 a.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Nathan G. McDowell, Staff Scientist and Director of the 
        Los Alamos Environmental Research Park, Los Alamos National 
        Laboratory

Question submitted by Representative Ben R. Lujan

Q1.  In your opinion, is DOE's environmental remediation program 
adequately supported, and are there any ways you believe this program 
could be improved?

A1. I appreciate the importance of environmental remediation at LANL 
and throughout the DOE complex. LANL's environmental remediation work 
is funded by DOE Environmental Management. There have rarely been 
sufficient funds to meet the goals of environmental remediation because 
environmental remediation is extremely challenging and the cleanup 
goals are hard to achieve. Environmental remediation at LANL has 
received $1.4 Billion since 1991, however, which contrasts with 
ecological impacts of climate change, which has received $0.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
